          OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Evaluation Report


        Significant Modifications Needed
        To Ensure Success of Fort Worth
        Asbestos Demolition Method
        Report No. 2004-P-00002

        December 19, 2003



         Fort Worth Method
         Phase I Demolition
Report Contributors:                          Rick Beusse
                                              Stephen R. Schanamann, CIH
                                              Dan Howard
                                              Thane Thompson
                                              Sarah Fabirkiewicz
                                              Darryl Weatherhead
                                              Eric Hanger


Abbreviations:

AHERA             Asbestos Hazard Emergency Response Act
CFR               Code of Federal Regulations
EPA               Environmental Protection Agency
FPA               Final Project Agreement
NESHAP            National Emission Standard for Hazardous Air Pollutants
OAQPS             Office of Air Quality Planning and Standards
OAR               Office of Air and Radiation
OECA              Office of Enforcement and Compliance Assurance
OIG               Office of Inspector General
OPEI              Office of Policy, Economics, and Innovation
ORD               Office of Research and Development
RACM              Regulated Asbestos-Containing Material
QAPP              Quality Assurance Project Plan
s/mm2             Structures Per Millimeter Squared




Cover Photo:     Image showing Fort Worth Method – Phase I demolition. Source: Image
                 obtained from EPA Region 6.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                      December 19, 2003


MEMORANDUM

SUBJECT:          Final Evaluation Report: Significant Modifications Needed To Ensure
                  Success of Fort Worth Asbestos Demolition Method
                  Report No. 2004-P-00002

FROM:             Kwai-Cheung Chan /s/
                  Assistant Inspector General for Program Evaluation

TO:               Jeffrey R. Holmstead
                  Assistant Administrator for Air and Radiation

                  John P. Suarez
                  Assistant Administrator for Enforcement and Compliance Assurance

                  J. Paul Gilman, Ph.D.
                  Assistant Administrator for Research and Development

                  Richard Greene
                  EPA Region 6 - Regional Administrator

                  Jessica L. Furey
                  Associate Administrator for Policy, Economics, and Innovation


Attached is our final report regarding the design, methodology, and oversight of the Fort Worth,
Texas, Project XL proposal for an alternate method of demolishing structures containing
asbestos. The subject evaluation was conducted by the Environmental Protection Agency's
(EPA) Office of Inspector General (OIG). This report contains findings related to modifications
needed to ensure success of the Fort Worth asbestos demolition method and corrective actions
the OIG recommends. This report represents the opinion of the OIG and the findings contained
in this report do not necessarily represent the final EPA position. Final determinations on
matters in the report will be made by EPA managers in accordance with established procedures.
Action Required

In accordance with EPA Directive 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For the corrective actions planned but not completed by the response date,
please describe the actions that are ongoing and provide a timetable for completion. Where you
disagree with a recommendation, please provide alternative actions for addressing the findings
reported.

We appreciate the efforts of EPA officials and staff, as well as those of the City of Fort Worth, in
working with us to develop this report. If you or your staff have any questions regarding this
report, please contact me at (202) 566-0832, or Rick Beusse at (919) 541-5747.
          Executive Summary
According to the Environmental Protection Agency's (EPA) National Asbestos
Registry System, over 166,000 asbestos demolition and/or renovation projects
were conducted in the last two years. Since asbestos is a known human
carcinogen, EPA has established stringent work practices to control emissions of
asbestos resulting from demolition projects. Buildings and other structures that
contain sufficient quantities of asbestos, known as regulated asbestos-containing
materials, or RACM, are governed by strict rules specified in EPA's National
Emission Standard for Hazardous Air Pollutants (NESHAP). This rule generally
calls for removing RACM prior to demolition, which can be costly. EPA's Project
XL is a national initiative that encourages testing of alternative ways to achieve
environmental results, as long as those results are superior to those achieved under
current regulations. Projects proposed under Project XL are intended to test new
approaches that could be applied more broadly. Using Project XL, the City of
Fort Worth, Texas, has proposed an alternative method for demolishing selected
structures that possess RACM.

In general, the "Fort Worth Method," as it is known, calls for thoroughly wetting
the structure with a fire hose while it is demolished using a bulldozer or track hoe,
but it does not call for removing all the RACM prior to demolition. The City has
proposed a three-phased approach to obtaining EPA's approval of the Fort Worth
Method. Phase I testing of the proposed Method occurred in 2001 on a small,
single family dwelling of less than three stories that was exempt from the
NESHAP due to the type of structure. Phase II testing is planned for an
abandoned hotel that contains enough RACM to be regulated by the asbestos
NESHAP. If the Phase II demonstration is deemed successful, Fort Worth plans
to conduct Phase III, consisting of multiple demolitions using the Fort Worth
Method. If approved, the Method would then be available for other cities to use
in demolishing similar structures. Other cities have already shown interest in the
Fort Worth Method. In 2000, a Miami University of Ohio/University of South
Carolina survey found that within 35 US cities there was a collective total of more
than 91,000 abandoned buildings in need of demolition. According to one EPA
asbestos expert's estimate, as many as 80 percent of these structures would contain
RACM.

The Office of Inspector General (OIG) initiated this evaluation because of the
national policy implications of this precedent-setting demonstration project, and
because the project involves a new approach to demolishing buildings containing
regulated quantities of asbestos. During our evaluation, we sought to answer three
specific questions that address how the design and methodology of the Fort Worth
Method could be improved and how EPA could improve its oversight of this

                                  i
      project and other Innovation proposals. Those questions, as well as summaries of
      what we found and recommendations for each, follow.

1. Is the design and methodology of the Fort Worth Method - Phase II adequate to
   demonstrate protection of human health and the environment?

      The current design and methodology of the Fort Worth Method is not adequate to
      demonstrate protection of human health and the environment. Significant
      modifications to the design and methodology will be necessary for EPA to ensure
      that the data generated and used to evaluate this project will be valid. For
      example, the description of the Fort Worth Method does not identify the key
      factors or variables that could be encountered during a demolition, nor does it
      specify how these or many other hazardous materials would be handled or treated
      to minimize potential exposures. There are also concerns about the adequacy of
      the ambient air monitoring that would take place during Phase II, and the Phase II
      proposal has not been independently peer reviewed to ensure that it is based on
      sound science. This proposal also has significant national policy implications,
      because, if determined equivalent to the NESHAP, this demonstration project may
      set a precedent that other communities could use in demolishing aging structures
      with asbestos.

      We recommend that EPA assist Fort Worth in modifying the Fort Worth Method
      to produce a single, finalized technical specification document that fully describes
      the Fort Worth Method, including the demolition strategy and associated Quality
      Assurance Project Plan (QAPP), and that this proposal be externally peer-
      reviewed prior to testing.

2. Does the Fort Worth Method - Phase II meet EPA's key Project XL criteria, including
   superior environmental performance, regulatory flexibility, adequate stakeholder
   involvement, and transferability to other asbestos demolition projects?

      Although initially proposed in September 1999, the Fort Worth Method does not
      yet meet EPA's Project XL criteria of superior environmental performance,
      appropriate regulatory flexibility, adequate stakeholder involvement, or
      transferability. Of 15 external stakeholder groups we interviewed regarding these
      four criteria, 13 did not believe that the Fort Worth Method, as currently written,
      is either equivalent or superior to EPA's NESHAP. EPA has yet to determine
      whether the method is either equivalent or superior to the Asbestos NESHAP.
      Also, the regulatory flexibility requirements necessary to approve this proposal
      have not been met, and the proposed Fort Worth Method does not utilize a work
      practice standard, but rather depends on the analysis of air monitoring samples,
      which take several days to analyze. As a result, the Agency and the City of Fort
      Worth could be exposed to liability issues from the public if it is later found that
      asbestos was released into the environment during the Phase II test.


                                       ii
      We recommend that EPA work with the City of Fort Worth to develop a Final
      Project Agreement that adequately addresses key Project XL Criteria for the entire
      proposed project (Phase II and Phase III), and that EPA ensure that Project XL
      team concerns are adequately addressed.

3. Has EPA's oversight to date ensured that the Fort Worth - Phase II project will allow
   EPA to reach valid conclusions on the effectiveness of such demolition techniques
   for each type of asbestos?

      EPA's oversight to date has not ensured that the Fort Worth Method-Phase II
      proposal will allow the Agency to reach valid conclusions on the effectiveness of
      this alternative demolition technique for each type of asbestos. This has occurred
      because: (1) after more than 4 years, the Fort Worth Method is not defined in
      sufficient detail to allow independent assessment; (2) a Final Project Agreement,
      usually established early in an XL project, has yet to be developed; (3)
      disagreements among XL team members have not been resolved; and (4) the
      proposal has not been peer reviewed. Also, concerns that the Phase I demolition
      was not representative have not been satisfactorily addressed. Without significant
      modifications, the proposed Phase II demolition may also not be representative of
      the effectiveness of such demolition techniques for each type of asbestos. Given
      the number of variables involved, it is questionable whether a single test – as
      described in the latest proposal – is adequate to statistically determine the success
      or failure of a new demolition method in accordance with sound scientific
      principles.

      EPA is also promoting similar "innovations projects" under the Agency's
      Innovations Strategy that raise questions regarding how fundamental project
      criteria, such as environmental performance, will be assessed. Because Federal
      Register guidance has not been issued for the Innovations Strategy, it is unclear
      how these proposals will be handled, how differences in views of project
      adequacy will be addressed, how timeframes will be enforced, and whether
      external peer review will be required prior to project implementation.

      We recommend that EPA develops comprehensive Agency guidance for
      conducting oversight of these proposed projects. We recommend that EPA assist
      the City of Fort Worth in designing a demonstration project that can be used to
      reach complete, reliable, and valid conclusions, and that EPA works with the City
      to ensure that the structures chosen for the Phase II demolition contain sufficient
      asbestos to provide representative test results. We also recommend that EPA
      develop and propose Federal rules and regulations for handling Innovation
      Strategy proposals, including the opportunity for public notice and comment.




                                       iii
Recent Developments

         The EPA Innovations Action Committee, formerly the Reinvention Action
         Committee, met on May 12, 2003 and recommended moving forward to Phase II,
         provided that certain conditions were addressed, including that the Fort Worth
         Method and the Quality Assurance Project Plan for Phase II be peer reviewed.

         Further, City of Fort Worth officials met with Agency and OIG officials on
         September 29, 2003 and provided additional documentation, including a revised
         method dated September 23, 2003. In a September 23, 2003 letter from the EPA
         Region 6 Regional Administrator to OPEI, OAR, OECA and ORD, the Regional
         Administrator stated that the City of Fort Worth is fully supportive of the need to
         meet the requirements under Project XL, including:

         C      preparation of a Final Project Agreement;
         C      development of a stakeholder plan that includes establishing an effective
                stakeholder group;
         C      holding public meetings regarding the project.

         We believe such commitments by EPA and Fort Worth are steps in the right
         direction. However, these commitments also need to fully address the concerns
         we have discussed in Chapters 2 and 3 regarding superior environmental
         performance, regulatory flexibility, stakeholder involvement, and the precedent
         setting nature of Project XL transferability.

Agency Comments and OIG Evaluation

         EPA provided a response to our draft report that consolidated the comments of
         five EPA offices. Although the Agency did not agree with our presentation of
         certain issues, it agreed to implement the majority of our recommendations and
         noted that our report would be helpful as it endeavors to carry out tests in a
         scientifically sound manner. In addition to technical comments, the Agency
         expressed concern with two aspects of the draft report. First, it stated that the tone
         of our draft report was "unnecessarily negative" and suggested that we provide
         more credit for its recent efforts to work with the City of Fort Worth to improve
         the proposed Method. In response, we created a "Recent Developments" section
         in the Executive Summary that discusses and gives credit to the Agency for their
         recent actions. This information was already provided in Chapters 2 and 4, but we
         summarized it in the Executive Summary to ensure that the Agency received
         appropriate credit for its recent efforts to work with the City of Fort Worth on this
         proposal.

         The second Agency concern related to differing interpretations of the precedent-
         setting nature of the Phase II test and the Agency's assertion that, "Any concerns

                                           iv
regarding broad use of the alternate method seem premature." Our work shows
otherwise. Project XL was created to provide the regulated community with the
flexibility to develop alternative strategies to replace or modify existing regulatory
requirements on the condition that those strategies produce superior
environmental performance. In our view, and in the views of many stakeholders
we contacted, if EPA were to declare the Fort Worth Phase II test a success, many
fiscally challenged municipalities would pressure the Agency to use this process
to demolish asbestos containing structures in their areas. However, the majority
of stakeholders we contacted believed that the Fort Worth Method needs
significant modifications before it could be considered as potentially equivalent to
the Asbestos NESHAP.

We continue to believe that OIG involvement in projects such as the Fort Worth
Method is both appropriate and timely, especially when such projects have the
potential to impact existing and possibly set new environmental and health
protection precedents. We have made other modifications to the report based on
specific comments from the Agency, and we have included the Agency's
consolidated response in its entirety in Appendix I. Our evaluation of the
Agency's consolidated response is in Appendix J.




                                  v
                                    Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           i



 Chapters

         1        Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                            Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                            Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                            Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

         2        Significant Modifications Necessary to Ensure
                  Adequate Protection of Human Health . . . . . . . . . . . . . . . . . . . . . . . . 5

                            Current Methods of Asbestos Demolition . . . . . . . . . . . . . . . . . . . . . . . . 5
                            Fort Worth Method Not Adequately Defined . . . . . . . . . . . . . . . . . . . . . . . . . 6
                            Proposed Air Monitoring Standard Not Appropriate . . . . . . . . . . . . . . . . . . 10
                            Proposal Not Peer Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                            Recent Developments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                            Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                            Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         3        Key Project XL Criteria Not Addressed . . . . . . . . . . . . . . . . . . . . . . . . 15

                            Superior Environmental Performance Questionable . . . . . . . . . . . . . . . . . . . . 15
                            Regulatory Flexibility Requirements Not Addresses . . . . . . . . . . . . . . . . . . . 16
                            Stakeholder Involvement Incomplete . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                            Transferability of Method Uncertain . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                            Development of Final Project Agreement (FPA) Necessary . . . . . . . . . . . . 18
                            Recent Developments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                            Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                            Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         4        Better Agency Oversight Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                            Phase I Conditions Still Not Met . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                            Stakeholders Concerns Unaddressed . . . . . . . . . . . . . . . . . . . . . . . . . 22
                            Agency Policies and Procedures for Similar
                               Types of Alternative Proposals Lacking . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                            Recent Developments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                            Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                            Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Appendices

  A   The Fort Worth Method . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

  B   Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . 33

  C   Summary of Stakeholder Responses . . . . . . . . . . . . . . . . . . . . . . . . 35

  D   Design, Methodology, and Worker Protection
        Issues Identified by Stakeholders . . . . . . . . . . . . . . . . . . . . . . . . . 37

  E   Concerns Regarding the AHERA Clearance Level . . . . . . . . . . . . . . .43

  F   Revised Fort Worth Method (as of Sept. 23, 2003) . . . . . . . . . . . . . . 45

  G   Analysis of the Revised Fort Worth Method . . . . . . . . . . . . . . . . . . . 51

  H   Five Attributes of Environmental Data Quality . . . . . . . . . . . . . . . . . . 55

  I   EPA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

  J   OIG Evaluation of EPA Response to Draft Report . . . . . . . . . . . . . . 73

  K   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
This page intentionally left blank
                                 Chapter 1
                                 Introduction
Purpose

          The Office of Inspector General (OIG) initiated this evaluation because of the
          national policy implications of this precedent-setting demonstration project, and
          because the project involves the demolition of buildings containing regulated
          quantities of asbestos. While Phase II of the proposal only focuses on one
          demolition, the entire project has a much larger potential impact. The data
          generated by the proposal may be used to justify the demolition of as many as 50
          buildings containing asbestos in the Fort Worth area. Also, since this proposal
          was introduced under Project XL, if the tests are considered successful, other
          cities may use the data generated by this project to justify similar demolitions.
          Some have already requested information related to this project.

          Our evaluation objectives were to determine whether:

          1.     The design and methodology of the Fort Worth Method - Phase II are
                 adequate to demonstrate protection of human health and the environment.

          2.     The Fort Worth Method - Phase II meets EPA's key Project XL criteria,
                 including superior environmental performance, regulatory flexibility,
                 adequate stakeholder involvement, and transferability to other asbestos
                 demolition projects.

          3.     EPA's oversight to date has ensured that the Fort Worth - Phase II project
                 will allow EPA to reach valid conclusions on the effectiveness of such
                 demolition techniques for each type of asbestos.

Background

          Asbestos is made up of microscopic bundles of fibers that may become airborne
          when disturbed. These fibers get into the air and may be inhaled into the lungs,
          where they may cause significant health problems. According to EPA
          Publication (EPA-340-1-90-020), "Scientists have not been able to develop a
          ‘safe' or threshold level for exposure to airborne asbestos." However, those
          researchers stated that the greater and the longer the exposure, the greater the risk
          of contracting an asbestos related disease. Asbestos related diseases include
          asbestosis, lung cancer, and mesothelioma.


                                            1
    Asbestosis is a serious, progressive, long-term disease caused by inhaling asbestos
    fibers. The fibers cause scarring of the lung tissue, which makes it harder for the
    lungs to do their job of getting oxygen into the blood. Lung cancer causes the
    largest number of deaths related to asbestos exposure. People who work in
    occupations involving the mining, milling, manufacturing, and use of asbestos and
    its products, including construction and demolition workers, are more likely to get
    lung cancer than the general population. Mesothelioma is a relatively rare form of
    cancer that is found in the thin lining of the lungs, chest, abdomen, and heart.
    Several hundred cases are diagnosed each year in the United States, and most
    cases are linked with exposure to asbestos.

    Because there is not a safe level of exposure for asbestos, EPA did not promulgate
    an asbestos emission standard.1 Instead, the Clean Air Act provides the
    Administrator with the authority to promulgate a "work practice standard" if it is
    not feasible to establish an emissions standard. Under Section 112 of the Clean
    Air Act, asbestos is determined to be a hazardous air pollutant that must be
    regulated under EPA's asbestos National Emission Standard for Hazardous Air
    Pollutants (NESHAP). The asbestos NESHAP specifies certain work practices
    that must be followed during demolitions and renovations of all structures,
    installations, and buildings that contain RACM. However, asbestos removal in
    accordance with EPA's asbestos NESHAP is costly because the regulations
    require that owners and operators take precautions to protect the public by
    minimizing the release of asbestos fibers during activities involving the
    processing, handling, and disposal of asbestos-containing materials. Also, Section
    61.150 of the Asbestos NESHAP requires owners and operators to "discharge no
    visible emissions to the outside air" during demolition and renovation activities.

    More than 166,000 asbestos demolition and/or renovation projects were
    conducted in the two-year period between the first quarter of 2001 and the first
    quarter of 2003, according to the National Asbestos Registry System. About 5.7
    million cubic feet of RACM are disposed of annually from demolition/renovation
    operations, with demolitions comprising approximately ten percent of these
    activities. In 2000, a Miami University of Ohio/University of South Carolina
    survey found that the 35 responding cities collectively had more than 91,000
    abandoned buildings in need of demolition. According to one EPA asbestos
    expert's estimate, as many as 80 percent of these structures would contain RACM.




1
    In 20 U.S.C. 3601(a)(1-3) of the Asbestos School Hazard Detection and Control Act of 1980, Congress found that: (1)
    exposure to asbestos fibers has been identified over a long period of time and by reputable medical and scientific evidence
    as significantly increasing the incidence of cancer and several other severe or fatal diseases, such as asbestosis; (2) medical
    evidence has suggested that children may be particularly vulnerable to environmentally induced cancers; and (3) medical
    science has not established any minimum level of exposure to asbestos fibers which is considered to be safe for individuals
    exposed to the fibers.

                                                       2
    Project XL Goals

    The proposal under review was submitted under EPA's Project XL program, a
    national initiative that encourages testing of cleaner, cheaper, and smarter ways to
    attain environmental results superior to those achieved under current regulations
    and policies, in conjunction with greater accountability to stakeholders. Project
    XL was created to provide the regulated community with the flexibility to develop
    alternative strategies to replace or modify existing regulatory requirements on the
    condition that those strategies produce superior environmental performance.

    The Fort Worth Method

    The City of Fort Worth submitted a proposal on September, 30, 1999, for an
    alternative method to the asbestos NESHAP. Under the Fort Worth Method, the
    City proposes to demolish substandard structures that are not in danger of
    imminent collapse but which, if left standing, may become structurally unsound
    over a period of years. The City proposes to do this without removing all the
    regulated asbestos-containing material from the structure. If approved, this
    method could change the way that asbestos demolitions are conducted nation-
    wide.

    The Fort Worth Method calls for structures to be thoroughly and adequately
    wetted using fire hydrant water prior to and during demolition, and during debris
    loading. The method also calls for using one or more bulldozers to demolish
    single story buildings, and a combination of bulldozers and track-hoes to demolish
    multi-story buildings. Once demolition is complete, the method states that,
    "Debris that is not contaminated by asbestos-containing material will be treated as
    construction debris. All other debris will be treated as asbestos-containing
    material and will be transported to a licensed disposal site in lined and covered
    containers." Appendix A provides a detailed description of the Fort Worth
    Method.

    The Fort Worth Project XL proposal is divided into three phases:

    •         Phase I - demolition of a small, single-family wood structure - which was
              exempt from the NESHAP requirements, occurred on April 22-25, 2001.
    •         Phase II of the project, the demolition of two buildings at the former
              "Cowtown Inn", is proposed for the summer of 20042.
    •         If the demolition conducted under Phase I and proposed under Phase II are
              determined to be successful, Phase III testing would proceed with the
              demolition of as many as 50 additional buildings in the Fort Worth area.

2
    According to a conversation with Region 6 staff in November 2002, the Phase II demolition was intended to be conducted
    in January, 2003, but was later deferred to June 2003. However, based on the most recent developments (see Chapter 4),
    EPA plans for demolition to occur any time after August 2004.
                                                   3
         The proposed Phase II demolition site is an old Travelodge motel, consisting of 9
         predominantly 2-story buildings in varying states of disrepair, that is located in a
         residential community and very near a school. According to the City of Fort
         Worth, the positive impacts of the method will include a reduction in crime
         havens, increased aesthetic beauty, increased development potential, and
         increased community pride. Fort Worth officials estimate that using the Fort
         Worth Method on the proposed Phase II structure could reduce demolition costs
         by as much as 60% compared to using the NESHAP method. Also, since this
         proposal was introduced under Project XL, other cities may use the data generated
         by this project to justify similar demolitions, and have already requested
         information related to this project. Therefore, the Fort Worth Project XL initiative
         will be precedent-setting for asbestos demolition and renovation activities.

Scope and Methodology

         We reviewed EPA's policies and guidance concerning Project XL and related
         innovations activities. We also reviewed the Fort Worth Project XL proposed
         project's design and methodology. We conducted evaluation fieldwork in EPA
         offices including the Office of Air Quality Planning and Standards (OAQPS); the
         Office of Enforcement and Compliance Assurance (OECA); the Office of
         Research and Development (ORD); the Office of General Counsel; the Office of
         Policy, Economics and Innovation (OPEI); the Office of Children's Health; the
         Office of Environmental Justice; and, Region 6. We also conducted evaluation
         fieldwork at the City of Fort Worth, Texas, including touring the proposed Phase
         II site with an OIG Certified Industrial Hygienist.

         In order to obtain external perspectives of the proposed Fort Worth Method, we
         also interviewed 15 external stakeholder groups from industry associations,
         environmental groups, academic organizations, and other Federal Agencies. We
         selected these groups based on information identified during our research, and
         with input from EPA and the City of Fort Worth. Details on the scope and
         methodology, a list of documents provided to the stakeholders, and selection of
         external stakeholder groups are included in Appendix B.

         The evaluation was performed in accordance with the Government Auditing
         Standards, issued by the Comptroller General of the United States. We conducted
         our fieldwork from February 2003 to July 2003.




                                          4
                                Chapter 2
        Significant Modifications Necessary to
     Ensure Adequate Protection of Human Health

          Significant modifications to the design and methodology of the Fort Worth
          Method will be necessary for EPA to ensure that the data generated and used to
          evaluate this project will be valid. The description of the Fort Worth Method,
          revised by the City on May 23, 2002, does not identify all the factors and variables
          that could be encountered during a demolition or specify how these elements
          would be addressed. There are concerns that the proposed air monitoring standard
          under this project is not appropriate. Additionally, the Fort Worth Method has not
          been independently peer reviewed. As a result, the current design and
          methodology is not adequate to demonstrate protection of human health and the
          environment.

Current Methods of Asbestos Demolition

          Under the current Asbestos NESHAP regulations, there are very specific methods
          for demolishing buildings that contain RACM. For buildings that are not in
          danger of imminent collapse, the NESHAP Method is the typical demolition
          process used. Under the NESHAP Method, the owner-operator must follow all of
          the work practice requirements outlined below:

          •      Discharge no visible emissions;
          •      Remove all RACM from a facility being demolished or renovated before
                 any activity begins that would break up, dislodge, or disturb the material;
          •      Adequately wet and carefully remove facility components that contain, are
                 covered with or coated with RACM; and,
          •      Adequately wet RACM that is stripped from facility components during
                 the operation, or stripping it in an air-tight containment area with a
                 negative air pressure ventilation and collection system, or in a glove-bag
                 system designed to contain the asbestos material produced by the
                 stripping, or wrapped in leak-tight wrapping to contain all the RACM prior
                 to dismantlement.

          Under certain circumstances, an owner-operator may request a variance from the
          NESHAP requirements. However, in order to qualify for a variance, the owner-
          operator must propose an alternate demolition process that meets requirements
          very similar to the NESHAP requirements above.



                                           5
          If a structure is unsound and in danger of imminent collapse, it is not possible to
          utilize either the NESHAP method or a NESHAP variance because these options
          would endanger the safety of asbestos workers. In this situation, the structure
          must be demolished utilizing the NESHAP Imminent Hazard method. Using this
          method, the owner-operator may demolish the building in an expedient and
          straightforward demolition process, often using a bulldozer with a spray of water
          to reduce dust. However, even in this case, certain work practices and public
          health precautions must be utilized to ensure no visible emissions are released
          from the section of the building that contains RACM.

Fort Worth Method Not Adequately Defined

          The current description of the Fort Worth Method, dated May 23, 2002, does not
          identify the key factors and variables that could be encountered during a
          demolition and does not describe how such issues would be addressed. Based on
          the current documentation, single-story structures demolished using the Fort
          Worth Method will be thoroughly wetted using fire hydrant water and demolished
          using one or more bulldozers, while a combination of bulldozers and track-hoes
          will be used to demolish multi-story buildings. The walls and interior
          components will be leveled on top of the building foundation, and debris will be
          loaded prior to removal of the concrete slab if present. Segregation of demolition
          debris will be done to the extent feasible to reduce the amount of contaminated
          debris that will be treated as asbestos-contaminated waste, and the site will be
          graded for future use following completion of the demolition. According to the
          method document, "Air monitoring will be conducted in compliance with the
          Quality Assurance Project Plan and the Final Project Agreement." Please see
          Appendix A for a more detailed description of the Fort Worth Method.

          Our evaluation of the Fort Worth Method document indicates that, as currently
          written, neither EPA, project officials, nor the public would have a clear
          understanding of the method prior to its implementation, and may have difficulty
          replicating this method at other locations. For example, it is unclear:

          •      Exactly what RACM would be removed or left prior to demolition of the
                 structure (Table 2.2 lists the types of materials that should be specifically
                 addressed in the Method);
          •      How these materials would be tested for RACM;
          •      What instrumentation would be used for testing different RACM;
          •      What detection limits would be used in testing these materials;
          •      How friable RACM (RACM with a high probability of being crumbled,
                 pulverized, or reduced to powder) would be treated;
          •      How runoff would be controlled, tested, and a determination made as to
                 whether it contained RACM;


                                           6
    •          How testing would be conducted to determine if RACM is adequately
               wetted3; and,
    •          What volume of asbestos must be present in the Phase II and Phase III
               structures to provide representative tests for the method.

    Also, Section 2C of the Fort Worth Method only provides that the "asbestos
    assessment report will allow for the development of a demolition strategy." It is
    unclear whether the resultant "demolition strategy" will receive the same level of
    scrutiny as is indicated for the asbestos assessment report. The Fort Worth
    Method is also unclear as to whether EPA or any other regulatory agency is
    required to review and approve the "demolition strategy" prior to its
    implementation. Additionally, the Fort Worth Method does not provide for
    contingency planning in the event that other types of RACM (besides Thermal
    System Insulation and spray-applied fireproofing) are encountered during the
    demolition process, nor does it provide for safeguards in the event that
    unanticipated conditions cause a health or environmental concern in the area.

    Another important unaddressed factor is that the Fort Worth Method does not
    provide for an immediately enforceable stopping point that allows regulators to
    question if asbestos is being released during demolition. With the various
    NESHAP methods, the "no visible emissions" work practice standard allows for a
    demolition to be stopped if visible emissions are identified. However, the Fort
    Worth Method does not utilize a work practice standard, but rather depends on the
    analysis of air monitoring samples, which take several days to analyze. Under the
    Fort Worth Method, demolition activities would continue even if visible
    emissions were identified, allowing for potential releases of asbestos into the
    environment. It is especially important for the Phase II demolition to have an
    immediately enforceable stopping point because the proposed Phase II test
    structure is located next to a residential neighborhood and a neighborhood school.

    A comparative analysis between the NESHAP requirements and the Fort Worth
    Method is presented in Table 2.1 below.




3
    The absence of visible emissions is not sufficient evidence of being "adequately wet."
                                                     7
Table 2.1: Comparison of Fort Worth Method to NESHAP Requirements


     Demolition Method                            NESHAP                    Imminent                            Fort Worth
       Comparison                                  Method                    Hazard                              Method1
                                                                             Method

 Structurally Sound                                    Yes                       No                                   Yes
 Buildings

 Asbestos                                              Yes                       No                                   Yes
 Assessment

 Provide notice to State                          10 days in              As soon as                      2 days in advance
 agency                                            advance                 possible

 Remove All RACM prior                                 Yes                       No                 Only large quantities of
 to demolition                                                                                     Spray-on Fireproofing and
                                                                                                   Thermal System Insulation

 Adequately Wet RACM                                   Yes                      Yes                                   No2
 during demolition

 Discharge No Visible                                  Yes                      Yes                                   No3
 Emissions

 Not Dependent on Air                                  Yes                      Yes                                   No4
 Monitoring Results

 Immediately Enforceable                               Yes                      Yes                                   No5
 Stopping Point

 1   If the Agency determines that the proposed Fort Worth Method achieves emissions reductions that are equivalent to the current
     requirements, then it could be used as an alternative to the current asbestos NESHAP. (See Chapter 3 for a detailed discussion).

 2   The Fort Worth Method did not specifically state how testing would be conducted to determine if RACM is adequately wetted.

 3   As discussed above, the Fort Worth Method does not employ a work practice standard that requires "no visible emissions" of asbestos.

 4   As discussed above, the Fort Worth Method depends on the analysis of air monitoring samples, which take several days to analyze.

 5   As discussed above, the Fort Worth Method does not provide for an " immediately enforceable stopping point" that allows regulators to
     question if asbestos is being released during demolition



External Stakeholders Views

We asked 15 external stakeholder groups, including industry associations,
environmental groups, and other Federal Agencies to independently review and
assess the current documentation of the Fort Worth Method (See Appendices C
and D). Thirteen of the 15 external stakeholder groups we interviewed do not
believe that the Fort Worth Method is either equivalent or superior to the
NESHAP. Three of the 15 stakeholder groups (the U.S. Department of Housing
and Urban Development, Division of Healthy Homes and Lead Hazard Control;
the International Union of Heat and Frost Insulators and Asbestos Workers; and,
the Environmental Information Association) did not believe that further
development of the Fort Worth Method should continue because the proposed
                                                         8
method would be unenforceable, and it could never be conducted without
releasing asbestos into the environment. Twelve of the 15 did not believe that the
method was adequately defined. The remaining groups that did not believe that
the method was adequately defined provided the following suggestions for how
the method could be improved:

•      Air monitoring should be conducted using a contractor that is independent
       from the demolition contractor;

•      The method documentation should specifically address wetting the inside
       of the structure prior to demolition;

•      A bulldozer should not be used, as specified in the method, because it
       could tear up the material and break it down, therefore making it friable;

•      There should be a third party consultant onsite at each demolition to
       actually "sign-off" on whether the asbestos materials and the building in
       general have been adequately wetted;

•      The method should specifically describe the distance from the demolition
       building where air samples would be collected; and,

•      The documentation should specify the total allowable volume of asbestos
       that can be contained in the building while using this method.

Appendices C and D summarize the comments received from stakeholders we
contacted.

Table 2.2 lists various asbestos containing materials that, based on our work –
including input from stakeholders – we believe need to be specifically defined
with regards to the Fort Worth Method prior to implementation.




                                 9
          Table 2.2: Materials That Should Be Addressed in Proposed Fort Worth Method


                   Asbestos Containing Materials that Need to Be Addressed

              Specific Type        •   tank insulation
              of Thermal           •   pipe insulation
              System               •   elbow/fitting/valve insulation
              Insulation4          •   boiler insulation
                                   •   duct insulation
                                   •   cement and patching compound

              Surfacing            •   mastic for flooring
              Material             •   asbestos-impregnated plaster, stucco
                                   •   spray-applied fireproofing
                                   •   spray-applied surface coatings (popcorn ceiling, vermiculite
                                       treatments)
                                   •   spray applied acoustical or decorative surfacing.
                                   •   troweled-on crows foot texture, splatter texture, and joint
                                       compound.
                                   •   spray-applied surface coatings crows foot texture, splatter texture,
                                       etc.
                                   •   window caulking

              Miscellaneous        C   fire curtains in auditoriums
              Material             C   fire doors
                                   C   vibration-dampening cloths
                                   C   asbestos-cement tiles, sheets, roofing shingles, and transite
                                   C   asbestos-impregnated roofing cement and asphalt roofing
                                       shingles
                                   C   linoleum or other floor tile
                                   C   roll flooring
                                   C   ceiling tile
                                   C   asbestos-impregnated pipe


Proposed Air Monitoring Standard Not Appropriate

          Several stakeholders we contacted suggested that the air monitoring standard
          proposed in the Fort Worth Method (the 70 s/mm2 Asbestos Hazard and
          Emergency Response Act (AHERA) clearance criterion) is not appropriate for use
          in ambient air monitoring around a demolition site because:

          •         It is not health-based;
          •         The original reason for its development – that it represented an average
                    background contamination level on asbestos testing filters – is no longer
                    correct; and,


     4
          While the method provides that RACM consisting of more than 260 Linear Feet of Thermal System Insulation (TSI) will
          be removed, it does not specifically list what materials are classified as TSI.


                                                        10
         •         The criterion is an indoor air, post-abatement clearance level that is used
                   by EPA to determine the success of asbestos abatement work conducted
                   under full containment, and requires sampling in a finite, enclosed space,
                   and with a contained volume of air.

         More than half of the external stakeholders (8 of 15) we interviewed did not
         believe that the AHERA standard was the appropriate measurement for this
         Method. One stakeholder commented that the AHERA standard was only
         intended to be used as an indoor clearance procedure after asbestos removal had
         been conducted, and while containment was still in place. He stated that the air
         monitoring outlined under the Fort Worth Method was not an aggressive test that
         requires the use of fans and leaf blowers during containment. Another
         stakeholder, who was one of the 26 people on the committee that advised EPA on
         the development of the AHERA Standard, stated that, "nobody ever said that 70
         structures was a safe exposure level, just that it was the lowest level measurable
         (at that time) because of background contamination on the filters." Today, based
         on sampling performed for the World Trade Center explosions, it has been
         determined that background contamination of filters is low enough to accurately
         detect asbestos fibers at about 15 s/mm2. Appendix E provides additional details
         on the propriety of using the AHERA clearance level in the Fort Worth proposal.

         Also, the placement of the ambient air monitors is not adequately addressed in the
         Quality Assurance Project Plan (QAPP). The placement of the monitors at a
         particular height may not capture all the asbestos fibers released. For example,
         some stakeholders suggested that monitoring at multiple heights and multiple
         distances may be needed to adequately determine whether asbestos particles
         escaped the demolition area. Further, setting monitors at upwind and downwind
         locations only, and not monitoring the entire perimeter, may not capture all
         asbestos released, as winds may be variable and the dispersing of fibers may not
         be predictable. As observed during the Phase I demolition, wind direction varied
         significantly.5

Proposal Not Peer Reviewed

         The proposed project has not been peer reviewed. The EPA Science Policy
         Council Peer Review Handbook dated December 2000 provides that, "Peer review
         is intended to uncover any technical problems or unresolved issues in a
         preliminary (or draft) work product through the use of independent experts."
         Further, that document states that, "Peer review enhances the credibility and
         acceptance of the decision based on the work product."



    5
         The Quality Assurance Project Plan (QAPP) for the Phase I demolition required that if wind direction varied by more than
         67 degrees for more than a 60-minute period, sampling would be terminated. In their April 9, 2002, Phase I Report
         Addendum, project officials acknowledged that wind direction varied by more than 67 degrees for more than a 60-minute
         period and yet demolition was not halted.
                                                        11
         Thirteen of the 15 external stakeholder groups interviewed believed the project
         should be peer reviewed (See Appendix C). Recently, EPA officials told us they
         would have the Phase II proposal externally peer reviewed prior to
         implementation.

Recent Developments

         City of Fort Worth officials met with Agency officials on September 29, 2003,
         and provided additional documentation including a revised method dated
         September 23, 2003. The revised method provides more details in some areas.
         However, in some cases, these additional details raise further concerns.
         According to OECA officials, the revised Method is still insufficient to determine
         equivalency to other types of construction and other types of RACM. Of
         particular note is that Fort Worth does not plan to conduct any air monitoring at
         Project XL demolitions after Phase II. OECA officials remain concerned that a
         single test is insufficient to gauge project effectiveness. Additionally, based on
         revised cost estimates for the Phase II demolition, the projected 40 to 60 percent
         savings that Fort Worth officials envision would only be achieved when air
         monitoring is not conducted. As such, we believe this revised method is still not
         equivalent to the NESHAP, and portions of the revised Fort Worth Method may
         be less protective than the previous version of the Method. Also, a determination
         of equivalency utilizing only the results of the Phase II test is not scientifically
         sound, because one demolition would not be representative of the various types of
         buildings to be demolished, the types of RACM likely to be found, and weather
         conditions that could be encountered. Appendix G provides a detailed
         comparison of the May 23, 2002, and September 23, 2003, versions of the Fort
         Worth Method.

Conclusion

         The Fort Worth Method Phase II test B as presently described B does not ensure
         protection of human health and the environment. The Method does not provide a
         reliable, repeatable, scientifically valid test that can be replicated at other
         locations, or that can be used to predict the success or failure of future uses of this
         method. Because of the potential national implications of this proposed project, it
         is important that project documentation, design, and methodology is detailed and
         clear enough that the Agency B as well as interested and affected parties B
         completely understand what is being proposed. Further, the air monitoring criteria
         used to determine success of the proposal must be appropriate, the method must
         be tested on a representative number and type of buildings to ensure statistical
         confidence, and the Method should be peer reviewed to assure that decisions
         made are based on sound science.




                                           12
Recommendations

         We recommend that the Assistant Administrator for Air and Radiation, the
         Assistant Administrator for Enforcement and Compliance Assurance, the
         Regional Administrator for Region 6, and the Associate Administrator for Policy,
         Economics, and Innovation ensure that:

         2-1.   Agency officials assist Fort Worth in modifying the Fort Worth Method to
                produce a single, finalized technical specification proposal, including the
                demolition strategy and associated QAPP that:

                a.    identifies and adequately describes how each type of RACM that
                      may be encountered during demolition will be addressed;
                b.    better defines the wetting requirements;
                c.    is documented in sufficient detail to allow for independent
                      assessment; and,
                d.    is evaluated based on an appropriate air monitoring standard and
                      monitoring that is representative.

         2-2.   Agency officials assist Fort Worth in fully describing the air monitoring
                that will take place, and to determine whether the air monitoring contractor
                would be independent from the demolition contractor.

         2-3.   Agency officials require that the Fort Worth Method is adequately peer
                reviewed prior to implementation.

         2-4.   Agency officials outline criteria that determines the volume of RACM
                necessary to ensure a representative comparison to the NESHAP, and
                assist the city in locating a structure that meets these criteria.

Agency Comments and OIG Evaluation

         EPA provided detailed comments to our draft report, and where appropriate, we
         made revisions. EPA concurred with the specific recommendations outlined in
         this chapter. The Agency responded that it has already specified that revising the
         Fort Worth Method and the associated QAPP, and peer review of the documents,
         are pre-requisites for moving forward with the Phase II test.

         The Agency disagreed with several specific findings of our technical evaluation of
         the Fort Worth Method. These included the requirement that RACM be
         adequately wetted, that no visible emissions be emitted, and that there be an
         immediately enforceable stopping point. The Agency stated that these
         requirements were included in the various documents associated with the Fort
         Worth Method Project XL proposal. However, these requirements are not
                                         13
specifically stated in the Fort Worth Method, and we continue to believe that these
requirements must be included in the Method itself. The Agency's complete
written response to our draft report and our detailed evaluation of that response
are contained in Appendices I and J.




                                14
                               Chapter 3
 Agreement Lacking on Key Project XL Criteria
         Although the City of Fort Worth initially proposed this project in 1999, four key
         Project XL criteria outlined in EPA's 1995 Federal Register Notice have not been
         adequately addressed, including superior environmental performance, regulatory
         flexibility, adequate stakeholder involvement, and transferability. According to
         XL requirements, each of these criteria must be satisfactorily demonstrated in
         order for an XL project to be deemed successful. The principal reason for the
         delay was because a Final Project Agreement, normally written early in an XL
         project, has not been developed due largely to internal Agency disagreements
         about the adequacy and benefits of the Fort Worth proposal.

         In 1997, EPA issued a Federal Register Notice clarifying the Project XL process,
         stating that, while the original criteria provided in the 1995 Federal Register
         Notice were still important, the first three – superior environmental performance,
         regulatory flexibility, and stakeholder involvement – actually defined Project XL.
         The following sections discuss the extent to which these three criteria have been
         met for the Fort Worth Project XL proposal, as well as the transferability of the
         proposal for use in other applications.

Superior Environmental Performance Questionable

         The 1997 Federal Register Notice that revised the Project XL process also better
         defined how superior environmental performance was to be determined.
         According to that revision, a project can meet the superior environmental
         performance requirements if it is at least equivalent to the current requirements,
         while providing additional benefits, such as a clear reduction of risk, or better
         achievement of community and public health priorities. However, a project that
         was not considered equivalent to current requirements could not be considered
         superior overall. Based on information presented in Chapter 2, it is not clear that
         the currently proposed Fort Worth Method is equivalent to the current Asbestos
         NESHAP.

         EPA's Project XL internal team members have yet to reach agreement on whether
         the Fort Worth Method is equivalent to the Asbestos NESHAP. Both OECA and
         OAQPS expressed significant concerns about the adequacy of the proposed Fort
         Worth Method. Specific concerns raised by both these groups included: the
         adequacy of Fort Worth wetting method; the ability of the process to control
         releases of asbestos from RACM; possible contamination of demolition
         equipment and surrounding area with friable asbestos emissions from building
         materials; cleanup of contaminated soils; and, how environmental benefits of the
                                          15
          Fort Worth Method would be compared to the Asbestos NESHAP. These specific
          concerns were expressed to Region 6 staff in numerous submissions of written
          comments between February 1999 and June 2002.

          Although aware that team disagreement had not been resolved, the Reinvention
          Action Committee6 decided in January of 2000 that the Fort Worth proposal
          should move forward in phases. Phase I, demolition of a single family dwelling
          that was exempt from the NESHAP, was conducted in April 2001 in an attempt to
          show equivalency to the NESHAP. Over two years after the Phase I test, the
          Project XL team members are still unable to agree whether the Phase I test was
          successful, or whether the test demonstrated that the current method is equivalent
          to the Asbestos NESHAP. As discussed in Chapter 2 above, these issues have yet
          to be resolved by the Agency, and have carried forward to the Phase II proposal.

          Many of the stakeholders that we interviewed were also concerned about the
          adequacy of the proposed air monitoring process. One of these stakeholders
          stated,
                  "It is likely that asbestos emissions could be missed by the air monitors
                  because the overall testing requirements seemed incomplete. Further, air
                  monitoring alone is not sufficient. There should be soil samples after the
                  work was done, and methods that captured and tested wetting water to
                  ensure that asbestos was not being released into the environment through
                  a different media. Finally, there should be a comparison test between the
                  Fort Worth Method and the NESHAP. However, the current method is not
                  sufficient to serve as a methodology for that comparison test."

Regulatory Flexibility Requirements Not Addressed

          In order for a Project XL proposal to be implemented within the scope of the
          applicable laws and regulations, a legal mechanism that provides sufficient
          regulatory flexibility (e.g., regulatory waiver, site-specific rule-making) must be in
          place. Under the Asbestos NESHAP, which implements these requirements of the
          Clean Air Act, EPA must publish a notice in the Federal Register that approves an
          alternative means of controlling asbestos before it is implemented. This notice
          allows the public the opportunity to assess the proposed alternative, and ensures a
          process of openness in the development of a new demolition method. Because
          EPA has not issued such a Federal Register Notice for the Fort Worth Method, the
          Agency has not established the appropriate legal foundation for this demonstration
          project.

     6
          Reinvention Action Committee membership for each proposal is made up of at least five different organizations (the
          relevant Region, the relevant Program office, the Office of Reinvention, the Office of Enforcement and Compliance
          Assurance, and the Office of General Counsel), and often more. Each Reinvention Action Committee member is charged
          with arbitrating conflicts and making policy decisions within his/her organization as it pertains to XL projects.


                                                       16
          Additionally, prior to publishing the proposal in the Federal Register, EPA must
          make an official determination of equivalency based on the proposed test plan (or
          test results). This official determination must include a description of the
          procedures followed in testing or monitoring and a description of pertinent
          conditions during testing and monitoring. As noted in Chapter 2, numerous
          stakeholders have expressed concern regarding the adequacy of the method
          description. EPA required a test of the Fort Worth Method in order to provide
          sufficient data to determine if the Fort Worth Method was equivalent to the
          asbestos standard. However, due to internal disagreements about the Phase I
          demolition test results, a determination of equivalency has not yet been made by
          the Agency.

          Further, EPA may lack the necessary information to make an equivalency
          determination because the Phase I demolition using the Fort Worth Method was
          not representative of a normal asbestos removal (See Chapter 4 for more details).
          In order for a demonstration project to have predictive value for other asbestos
          demolition projects, it is necessary for the demolition to be performed in a manner
          as close as possible to normal commercial asbestos demolition work. As a result,
          moving forward with Phase II without first meeting the regulatory flexibility
          requirements of both the Clean Air Act and Asbestos NESHAP could expose the
          Agency and the City of Fort Worth to liability issues from the public if it is later
          found that asbestos was released into the environment during the test.

Stakeholder Involvement Incomplete

          The City has performed some stakeholder involvement activities, including
          inviting stakeholders to review and comment on the Phase I proposal documents
          on the City's website in 1999. However, according to the 1997 Federal Register
          Notice, project sponsors should engage "direct participants" in the development of
          the project. According to the Notice, a direct participant "works intensively with
          the project sponsors to build a project from the ground up," and "the views of
          direct participant stakeholders will strongly influence the details of the project as
          well as EPA's ultimate decision to approve or not to approve the project." EPA's
          Office of Environmental Justice was not aware of this project, but after reviewing
          the proposal, it specifically expressed concern about the level of community
          information and stakeholder involvement covered in the current proposal. A
          majority of the stakeholders we interviewed were not aware of the Fort Worth
          proposal prior to our contacting them, and most raised significant concerns with
          the project. Appendix D provides additional details on the views of stakeholders
          we contacted.




                                           17
Transferability of Method Uncertain

          The Fort Worth Method, as it is known, has not been clearly defined in terms that
          provide a clear understanding of what is to be removed during a Project XL
          asbestos demolition, making both independent analysis of the Fort Worth Method
          and replication by others difficult (See Chapter 2 for details). Twelve of the
          fifteen stakeholders groups interviewed did not believe that the method was
          sufficiently defined, and ten did not believe that the method could be successfully
          "transferred" to another municipality with assurance that it would be properly
          replicated with similar results (See Appendix C). As noted by one stakeholder,
          there may be inconsistencies in actual application of the Method during the
          demolition process (depending on worker knowledge and training, instructions by
          the contractor, and/or equipment used), such that starting with a Method that is
          not sufficiently detailed significantly increases the likelihood of implementation
          problems.

Development of Final Project Agreement (FPA) Necessary

          Only the signing of the FPA constitutes the selection of a pilot as a "full fledged"
          pilot project, according to the 1995 Federal Register Notice that established
          Project XL. The Notice further requires that FPA's address project-specific issues
          such as legal authority for project implementation, provisions for regulatory
          flexibility for pilot projects, public involvement, specific commitments to
          environmental progress, expected environmental results, and enforceability before
          implementation. However, nearly four years after the start of this XL project, an
          FPA is yet to be written and agreed to by EPA internal stakeholders. The
          "estimated timeframes" for when an FPA should be completed is normally less
          than 12 months from the date of proposal. This project, however, has continued
          for several years without the resolution of key issues.

Recent Developments

          In a September 23, 2003, letter from the EPA Region 6 Regional Administrator
          for to OPEI, OAR, OECA and ORD, the Regional Administrator wrote that the
          City of Fort Worth is fully supportive of the need to meet the requirements under
          Project XL, including:

          C      preparation of a Final Project Agreement;
          C      development of a stakeholder plan that includes establishing an effective
                 stakeholder group; and
          C      holding public meetings regarding the project.

          We believe such commitments by Fort Worth are steps in the right direction.
          However, these commitments also need to fully address the concerns we have
                                       18
         discussed in Chapter 2 and in this chapter regarding superior environmental
         performance, regulatory flexibility, stakeholder involvement, and the precedent-
         setting nature of Project XL transferability.

Conclusion

         Nearly four years after the Fort Worth project was initially proposed, and two
         years after the Phase I demolition occurred, core project issues are still in dispute
         among various EPA offices. As a result, key Project XL criteria have yet to be
         met, superior environmental benefits from this project have not been assured, and
         the equivalency of this proposed method has not been determined. Additionally,
         moving forward to Phase II without the development of an appropriate regulatory
         flexibility mechanism could potentially open the Agency and the City of Fort
         Worth to costly liability concerns.

Recommendations

         3-1.   We recommend that the Assistant Administrator for Air and Radiation, the
                Assistant Administrator for Enforcement and Compliance Assurance, the
                Associate Administrator for Policy, Economics, and Innovation, and the
                Regional Administrator for Region 6 ensure that Agency officials work
                with the City of Fort Worth to develop a Final Project Agreement that
                adequately addresses key project XL Criteria for the entire proposed
                project (Phase II and Phase III), including:

                <     determining whether the project can achieve superior environmental
                      performance;
                <     verifying a mechanism for regulatory flexibility;
                <     obtaining adequate stakeholder involvement;
                <     sufficiently documenting the method so that it can be properly
                      transferred to other communities with similar results; and,
                <     ensuring that all Project XL team concerns are adequately addressed.

Agency Comments and OIG Evaluation

         EPA provided detailed comments to our draft report, and where appropriate, we
         made revisions. EPA disagreed with several of our statements concerning the
         relationship between the Phase I demolition and the remainder of the Fort Worth
         Method Project XL demonstration.

         We understand that the Phase I demolition was not originally included in the
         September 30, 1999, proposal. However, nothing in the additional requirements
         for Phase I precluded the Agency from addressing these key Project XL criteria
         for the remaining Phases of the demolition project. The Region 6 Conditional
                                          19
Project Approval Letter to the City included the criteria necessary to move
forward to Phase II, including a finding of equivalency from the Administrator. It
remains our position that these key Project XL criteria have not been met. The
Agency's complete written response to our draft report and our detailed evaluation
of that response are contained in Appendices I and J.




                                20
                                 Chapter 4
              Better Agency Oversight Needed
          EPA's oversight to date has not ensured that conditions placed on the project in
          the 2000 Conditional Project Approval Letter have been met, that problems
          related to representativeness and equivalency have been resolved, or that statutory
          and regulatory requirements have been satisfied. Additionally, significant
          concerns have been raised by Project XL team members, other EPA Regional staff
          and interested stakeholders as to whether data to be generated by the Fort Worth
          Method - Phase II project will be complete and reliable, and whether the project
          will ensure that EPA reaches valid conclusions. Without better oversight, national
          policy decisions related to asbestos demolitions could be made based on a
          demonstration project that is not representative or transferable to other sites.

Phase I Conditions Still Not Met

          Although this project received conditional approval more than three years ago,
          EPA oversight has not ensured that conditions placed on the project have been
          met. These conditions include determining whether the results of Phase I
          demonstrated equivalency and developing a Final Project Agreement. These
          conditions were included in a Region 6 Conditional Project Approval Letter to the
          City dated January 20, 2000. This letter provided that,

                  "If the data from the new Phase I supports a finding by the Administrator
                 that the Fort Worth method is equivalent to the NESHAP method, the
                 City's originally proposed Phase I will become Phase II and will be
                 expanded to a wider variety of buildings subject to the asbestos
                 NESHAP."

          Further, the January 20, 2000 letter stated,

                 "If this determination is that the methods are equivalent, a Final Project
                 Agreement will be developed and signed, to guide the project through to
                 and through implementation. If the methods are not found to be
                 equivalent, the project will end at that time."

          The Phase I demolition was conducted more than two years ago (April 2001);
          however, the Agency has yet to agree whether Phase I demonstrated equivalency,
          and has not issued a finding of equivalency as required in the Conditional Project
          Approval Letter. Further, EPA may lack the necessary information to make an
          equivalency determination because the demolition was not representative of a
          normal asbestos removal for the following reasons:
                                           21
         •         The pace of demolition was much slower than what would occur under
                   normal conditions;
         •         The amount of water used on the Phase I demolition was not
                   representative of a normal asbestos removal; and,
         •         The building demolished under Phase I did not contain significant amounts
                   of spray-applied thermal insulation or asbestos-containing pipe wrap –
                   asbestos-containing materials which easily become friable.7

         Further, the conditions of the QAPP were not met for the Phase I demolition
         project. The wind direction varied significantly during the demolition, yet both
         the demolition and air sampling continued. The QAPP for this project required
         that if wind direction varied by more than 67 degrees for more than a 60-minute
         period, sampling would be terminated. In their April 9, 2002, Phase I Report
         Addendum, project officials acknowledged that wind direction varied by more
         than 67 degrees for more than a 60-minute period and yet demolition was not
         halted. In discussions with City of Fort Worth officials, they stated that the winds
         reversed exactly 180 degrees one of the days, but they decided to continue the
         demolition operation because the shift was exactly 180 degrees and did not
         change again. The QAPP conditions regarding wind direction must be clarified
         before Phase II demolition is allowed to proceed.

         In order for a demonstration project to have predictive value for other asbestos
         demolition projects, it is necessary for the demolition to be performed in a manner
         as close as possible to normal commercial asbestos demolition work. It is
         necessary that demonstration projects contain the types of asbestos that can be
         expected to be encountered in normal commercial asbestos demolition. Further, it
         is essential that the demolition be conducted in accordance with the Quality
         Assurance procedures established to ensure that data obtained are reliable and of
         known quality.

Stakeholders Concerns Unaddressed

         As discussed in Chapter 3, concerns related to this proposed project have been
         raised internally by OAQPS and OECA since 1999. Further, external
         stakeholders and other Regional staff members have also expressed concerns. In
         the process of our evaluation, we contacted and interviewed 15 external
         stakeholder groups to gather their opinions of this proposal. Appendix B
         describes the process for identifying these stakeholder groups. One of the groups
         believed that the current method was superior, one group believed the method was
         equivalent, and 13 groups did not believe the method was either superior or
         equivalent. Ten groups we contacted believed that significant modifications
         would be needed before the Method could become equivalent to the current

    7
         Material that, when dry, may be crumbled, pulverized, or reduced to powder by hand pressure.
                                                        22
          requirements. Three groups did not believe that further development of the Fort
          Worth Method should continue because the proposed method would be
          unenforceable. Better EPA oversight and more complete stakeholder involvement
          could have resulted in a more timely resolution of these issues.

          Two Region 5 employees from the Air Enforcement and Compliance Section
          commented to the proposal in a November 18, 1999, memorandum that Region 5
          was opposed to the acceptance of the Fort Worth Project XL proposal and raised
          several concerns to the XL Team. Further, this proposal was not well received in
          March 2002 by participants at the National Conference of State Legislature's 5th
          Annual Asbestos Meeting when the proposal was presented by a Region 6
          employee. While approximately 100 individuals attended this presentation, none
          appeared to speak in favor of the Fort Worth proposal and significant comments
          opposing the proposal were made. For example, according to the transcript, one
          participant noted that:

                 "You can't wet a painted ceiling from the bottom. Are you going to poke
                 holes and saturated ceilings and walls from the backside until you see
                 water dripping? This seems to me about the money. These guys will be
                 taking out the asbestos for money. They will lie and this is floor tile on a
                 grander scale. Is anyone awake here? If this goes through I give you two
                 conferences from now and everybody will be saying, ‘who let this go
                 through?' (clapping)."

          Some other commenters were more severe in questioning the feasibility of the
          proposed Method, with one noting that "In Colorado we feel that outdoor
          sampling is a joke..." As a result of the issues discussed above, we believe that
          improved EPA oversight and more widespread stakeholder involvement is
          necessary to develop and approve an alternative asbestos demolition method.

Agency Policies and Procedures for Similar Types
of Alternative Proposals Lacking

          Project XL was one of EPA's early efforts to provide innovative environmental
          alternatives. However, Project XL proposals are no longer being accepted
          because all such alternative proposals now fall under one of two other EPA
          innovations strategies: (1) Environmental Council of the States projects, or (2)
          Innovations Strategies. Although both programs are similar to Project XL in that
          they provide regulatory flexibility to owners and operators and the opportunity for
          cost savings, EPA officials were only able to provide general guidance for how
          Environmental Council of the States projects should be carried out in the form of
          a Joint EPA/State Agreement, and have not developed policies and procedures for
          Innovations Strategies.

                                           23
         Unlike Project XL, specific criteria for gauging project success have not been
         developed nor published in the Federal Register for these other two innovation
         options. While Innovation projects have already been proposed, the Agency's
         Innovations guidance is still being developed and no specific criteria have been
         developed to date to govern these projects. Consequently, three concerns must be
         sufficiently addressed if future innovations projects are to be effectively
         administered.

         •      There should be specific guidance regarding the assessment of the
                technical merits and enforceability of proposed projects to assure that
                expertise within the Agency is fully considered. In this instance, technical
                and enforcement concerns by OAQPS and OECA did not appear to be
                given sufficient consideration by the Agency co-sponsors prior to the
                involvement of the Office of Inspector General. This issue contributed to
                dissenting opinions regarding the environmental effectiveness of the
                current Fort Worth Method.

         •      Innovations criteria must include a requirement for peer review, especially
                when a proposal has significant national policy implications. As discussed
                earlier, peer review was not performed on this proposal even though
                significant scientific and technical concerns were raised both internally
                and externally.

         •      Future Innovations policies should contain required timeframes that are
                enforced so that projects cannot continue for years without the resolution
                of key issues. We noted that the Environmental Council of the States
                agreement includes suggested timeframes for when EPA must make a
                decision on whether to accept or reject a proposed project. However, as
                discussed above, the Project XL guidance also contained suggested
                timeframes and these timeframes were not met.

Recent Developments

         EPA is currently considering requiring that the City meet certain conditions that
         address some of our concerns before moving to Phase II. However, these
         conditions do not address the issue of equivalency. The EPA Innovations Action
         Committee, formerly the Reinvention Action Committee, met on May 12, 2003,
         and recommended moving forward to Phase II, provided that certain conditions
         were addressed. These conditions included:

         •      Requiring the development of a Final Project Agreement (detailing
                procedures for the Phase II demolition) by a stakeholder group specifically
                assembled for this project.
         •      Requiring EPA staff to work with the City to produce more detailed
                method documentation.
                                         24
         •      Requiring that the Method documentation and Quality Assurance Project
                Plan for Phase II be peer reviewed.
         •      Reconsidering the proposed Phase II site or ensuring that children in a
                nearby school are not exposed to asbestos due to the demolition.

         In a September 29, 2003, letter from the EPA Region 6 Regional Administrator to
         OPEI, OAR, OECA and ORD, the Regional Administrator wrote that the Region
         and the City of Fort Worth plan to take steps to address items recommended by
         the Innovation Action Committee, including:

                (1)     The use of additional monitors at the adjoining school and
                        sampling prior to Phase II to establish a background level; and,

                (2)     Preparing a remediation plan in case there are emissions.

         We believe that these are steps in the right direction. However, there are currently
         no sufficient data from Phase I, nor agreement among the XL team members
         regarding the results of Phase I, on which to base an equivalency determination.
         Further, the revised Phase II proposal attempts to base an equivalency
         determination on a single test. As a result, insufficient oversight could allow a
         determination of equivalency for an alternative method that has not satisfactorily
         established that it will reduce emissions as effectively as the asbestos NESHAP.

         Also, while the Agency agrees in its response to our draft report that, "A single
         test in Phase 2 is insufficient to serve as a launchpad to implement the Fort Worth
         Method," this expectation does not seem to have been effectively communicated
         to the City of Fort Worth. The September 23, 2003, revision of the Fort Worth
         Method states that the City will only conduct air monitoring during the Phase II
         demolition, and afterwards will not conduct further testing of the Method, but
         move directly to implementation. We believe that the methodology in this revised
         proposal indicates ineffective oversight and communication on the part of the
         Agency. Further, this is contrary to the statutory and regulatory requirements
         discussed in Chapter 3, and does not satisfy sound scientific processes discussed
         above. An alternative emission standard can only be approved after notice and
         opportunity for public comment, and valid scientific assurance that the proposed
         alternative reduces emissions as effectively as the asbestos NESHAP. Further,
         EPA must publish a notice in the Federal Register that approves the alternative
         means of controlling asbestos before it is implemented.

Conclusion

         Agency oversight should ensure that the tests of alternate methods of asbestos
         demolition are representative and that the results of those tests are valid, because
         the Agency must use those data to determine if proposed alternatives are
                                          25
        equivalent to current requirements. Many internal and external stakeholders have
        raised significant concerns related to this project. These concerns should have
        been indicators that stakeholder involvement was necessary earlier in the process
        to determine whether there was enough support for this project to continue. The
        conditions that the Agency is currently considering for the project, including
        development of a Final Project Agreement and reconsidering the Phase II site,
        would partially address these concerns. However, these proposed conditions do
        not address how the Agency will use the data from Phase II, including whether it
        will use that data to draw conclusions regarding the equivalency of the Fort Worth
        Method.

Recommendations

        We recommend that the Assistant Administrator for Air and Radiation, the
        Assistant Administrator for Enforcement and Compliance Assurance, the
        Associate Administrator for Policy, Economics, and Innovation, and the Regional
        Administrator for Region 6:


        4-1.   Ensure that Agency officials work with the City of Fort Worth to design a
               demonstration project that can be used to reach complete, reliable, and
               valid conclusions.

        4-2.   Work with the City to ensure that the structures chosen for the Phase II
               demolition contain sufficient asbestos to provide a representative test and
               is sited in a remote location.

        4-3.   Ensure that Agency officials address the key conditions of the Conditional
               Project Approval letter, including equivalency and FPA development.

        4-4.   Ensure that Agency officials specify which legal mechanism will be used
               and which technical and process criteria will govern the Fort Worth
               Method project in the future, specify how human health will be protected
               to at least a level equivalent to the current Asbestos NESHAP, and publish
               the proposal in the Federal Register to solicit nationwide input on the
               technical merits and enforceability of the proposal.

        We also recommend that the Assistant Administrator for Research and
        Development and the Associate Administrator for Policy, Economics, and
        Innovation work jointly to ensure that:




                                        26
         4-5.   Agency officials develop a single guidance document for all proposals
                submitted under the Agency Innovations Strategy that provides
                fundamental criteria and is published in the Federal Register, including:

                •       requiring assessment of the technical merits and enforceability of
                        proposed projects;
                •       ensuring that relevant expertise within the Agency is appropriately
                        considered; and,
                •       requiring peer review of proposals that have significant national
                        policy implications, to ensure that national policy decisions are
                        based on sound science.

Agency Comments and OIG Evaluation

         EPA provided detailed comments to our draft report, and where appropriate, we
         made revisions. EPA agreed with all our recommendations in this chapter except
         for recommendation 4-5. EPA considered recommendation 4-5 to be beyond the
         scope of this project. Further, EPA disagreed with several of our statements
         concerning the requirements of the 2000 Conditional Project Approval Letter, as
         well as our assessment of the Phase I demolition. The Agency stated that it is
         committed to ensuring that the project is well defined, based on scientifically
         valid principles, and shaped through full and open dialogue with a broad
         stakeholder group. The need to further refine the Fort Worth Method as it
         presently exists, as well as the Quality Assurance Project Plan (air, water, waste
         monitoring specifics) for the Phase II test, is a prerequisite set out by the IAC.

         We are encouraged with the Agency's intentions regarding better clarification of
         the method, external peer review, stakeholder involvement, and development of a
         Final Project Agreement. We note, however, that these intentions have yet to be
         realized after four years of effort. Therefore, we continue to believe our
         observations and recommendations in this chapter are warranted. For example, in
         Response 27 (Appendix I), the Agency stated, "...the Phase I test was slower and
         not fully representative of a NESHAP removal..." and yet the Agency and Fort
         Worth have continued to move forward with the proposed project as if the Phase I
         test were fully representative. We agree that the Phase I demolition was not fully
         representative of a NESHAP demolition. Therefore, use of Phase I data should
         not be used to determine equivalency to the NESHAP.

         Regarding recommendation 4-5, EPA officials have told us that no additional
         alternative proposals will be conducted under Project XL, and that new alternative
         approaches to existing regulations will be carried out under other Agency
         initiatives, such as the Agency's Innovations Strategy. For example, EPA's
         September 30, 2003, Strategic Plan relies on the Agency's Innovation Strategy for
         providing flexibility to the regulated community. We note that, whereas Project
         XL performance criteria were established prior to initiation of any proposals and
                                           27
were published in the Federal Register, no similar performance criteria has been
established or published in the Federal Register for EPA's Innovations Strategy.
Therefore, we believe that recommendation 4-5 continues to be an appropriate
step to assure that such projects are evaluated based on sound science, irrespective
of the name of the program or initiative under which they are carried out. We also
believe that the Federal Register notice-and-comment process will allow for
nationwide input on the technical merits and enforceability of any such proposals.
We are pleased that the Agency's Strategic Plan envisions that such future projects
will be clearly defined, based on sound science, and employ a full, open,
transparent, and inclusive stakeholder process. The Agency's complete written
response to our draft report and our detailed evaluation of that response are
contained in Appendices I and J.




                                 28
                                                                                          Appendix A




                                      The Fort Worth Method
                                      [May 23, 2002 Version]

1.   Declaration of Substandard Structure

     The City of Fort Worth Minimum Building Standards Code provides procedures to order the
     repair or demolition of structures that may endanger the life, health, and safety of the occupants
     or the public.

     S       If a structure does not meet the Minimum Building Standards Code, the Code
             Compliance Department will give the owner notice to bring the structure into
             compliance.

     S       If the structure is not brought into compliance, a hearing will be held before the City's
             Building Standards Commission. All owners, mortgagees, and lien holders of the
             property will be given notice and given an opportunity to comment at the hearing.

     S       The Building Standards Commission may, after notice and hearing, declare a structure to
             be substandard, and specify in its written order a reasonable time for the structure to be
             vacated, secured, repaired, or demolished by the owner.

     S       If the Building Standards Commission's order to vacate, secure, repair, remove, or
             demolish the building is not complied with within the allotted time, the City may
             demolish the building at the City's expense, and assess a lien against the subject property
             for costs.

2.   Asbestos Assessment and Abatement

     Once the decision has been made that the City will proceed with the demolition of a structure,
     the facility will have a thorough asbestos assessment conducted by an EPA accredited and TDH
     licensed asbestos inspector who will prepare a written report of the findings.

     a.      The assessment will identify asbestos-containing building materials (ACBM) and their
             locations in accordance with the Asbestos Hazard Emergency Response Act (AHERA),
             Asbestos School Hazard Abatement Reauthorization Act (ASHARA), and Texas
             Asbestos Health Protection Act (TAHPA) requirements.

     b.      The assessment report will be compiled by the asbestos inspector and reviewed for
             completeness and quality by an asbestos management planner or asbestos consultant.

                                                 29
     c.     The asbestos assessment report will allow for the development of a demolition strategy.
            If regulated asbestos containing materials (RACM), consisting of more than 160 SF of
            spray-on fireproofing or more than 260 LF of thermal system insulation (TSI), are
            encountered in a single structure, then removal specifications will be prepared and the
            identified material will be removed prior to demolition by a TDH-licensed asbestos
            abatement contractor.

3.   Worker protection

     a.     The City will require its demolition contractors to comply with all applicable OSHA
            regulations for worker protection including but not limited to 29 CFR 1910 and 29 CFR
            1926.

     b.     The City will contract with an asbestos consultant, licensed by the Texas Department of
            Health (TDH), to provide oversight of the demolition process. The consultant will have
            a certified industrial hygienist (CIH) on staff.

4.   Demolition Method

     a.     Facilities will be demolished one structure at a time.

     b.     Demolition contractors will have daily safety meetings prior to work commencement to
            ensure safe demolition of the structure(s).

     c.     The demolition method will vary by the size and type of facility and types of RACM.
            Demolitions will be performed by heavy equipment only. No explosives will be used to
            explode or implode structures, and burning will not be utilized to demolish structures.
            Multi-family residential structures typically range from one to four stories. Commercial
            structures typically range from one to two stories.

            i.      Heavy equipment. Typically, one or more bulldozers will be used to demolish
                    single story buildings, and a combination of bulldozers and track-hoes will be
                    used to demolish multi-story buildings.

            ii.     Wetting. A structure will be thoroughly and adequately wetted using fire
                    hydrant water applied with a variable rate 11-G (11 gpm) or 30-G (30 gpm)
                    nozzle prior to, during demolition, and during debris loading. A water meter (or
                    equivalent device) will be installed at the water hydrant to measure the volume
                    of water used during demolition of the structure. The water will be delivered as
                    a mist or concentrated stream. Direct high-pressure water impact of RACM will
                    be prohibited. The demolition debris will be adequately wet at all times and kept
                    wet during handling and loading into containers for transport to a licensed
                    disposal site.

            iii.    Collapsing structure inward. The majority of the walls and interior components
                    will be leveled on top of the building foundation, and debris will be loaded prior
                    to removal of the concrete slab if present.



                                                30
            iv.       Segregation of demolition debris. Segregation of demolition debris will be done
                      to the extent feasible to reduce the amount of contaminated debris that will be
                      treated as asbestos-contaminated waste. Debris that is not contaminated by
                      asbestos-containing material will be treated as construction debris. All other
                      debris will be treated as asbestos-containing material. Any segregation of the
                      waste will be the responsibility of an onsite Asbestos NESHAP trained
                      individual. The asbestos-containing material will be transported to a licensed
                      disposal site in lined and covered containers.

                      For example, if RACM is isolated on the structure, the contractor will be advised
                      to demolish the other areas of the structure first, taking care not to disturb the
                      RACM, and to load the demolition debris separately. Then the part of the
                      structure containing the RACM will be demolished and that debris will be
                      disposed of as asbestos-containing material.

            v.        Grading. The site will be graded for future use following completion of the
                      demolition.

     d.     No engineering controls are planned to be in place during the demolition other than
            adequately wetting the demolition materials.

5.   Storm Water Protection

     Demolition projects typically have a minimal to moderate amount of runoff depending on the site
     location and site conditions.

     a.     Asbestos has not been identified as a priority or secondary pollutant in storm water
            runoff within Fort Worth, and the City expects minimal, if any, asbestos impact on
            runoff from any demolition site. The USEPA relevant standards for asbestos are:

            •         Drinking Water Standard: 7 million fibers/liter (40 CFR 141.23 (a)(4)(i))
            •         Reportable Quantity: One pound (40 CFR 302.4 (a) Table 302.4).

            Note: The City does not expect to exceed either standard and actually expects to have
            minimal to no impact on runoff from asbestos and demolition debris.

     b.     Best management practices will be used to control runoff to the maximum extent
            practicable. Runoff from the job site will be controlled using a combination of natural
            drainage, manmade drainage channels, and silt fencing as applicable.

6.   Air Monitoring

     Air monitoring will be conducted in compliance with the Quality Assurance Project Plan and the
     Final Project Agreement.

7.   Disposal

     a.     As stated above in Section 4.c.iv., segregation techniques will be used during demolition
            in an effort to reduce the amount of contaminated debris that has to be treated as asbestos
                                                 31
             contaminated waste. Segregation of waste will be the responsibility of the onsite
             NESHAP-trained individual.

     b.      Demolition debris will be kept adequately wet during loading and transporting to a waste
             disposal site.

     c.      Demolition debris will be loaded onto trailers using a track-hoe or similar equipment.
             Typically, the contractor will use construction trailers capable of holding 20 cubic yards
             of waste material.

     d.      Vehicles used to transport asbestos-containing waste material to the landfill must be
             covered with a tarp, and must be clearly marked during loading and unloading of waste.
             Transportation will be immediate and by a direct route.

     e.      The City will not mandate that its demolition contractors use a specific landfill for
             disposal. The job specifications for demolitions would state that disposal shall be in
             accordance with all Federal, State and local requirements. The contractors will be
             allowed to decide which landfill is a viable option. The City will not pay the contractors
             until it has received properly completed manifests.

     f.      The City will maintain waste disposal records for a minimum of two years.

8.   Decontamination

     Care will be taken to reduce the potential contamination of other job sites by equipment. Heavy
     equipment involved in the handling of asbestos-containing material may be decontaminated by:

     a.      Thoroughly rinsing the equipment components that come in contact with the
             asbestos-containing material. On-site water supply (e.g., fire hose) will be utilized.

     b.      Collection of rinse water on-site into natural depression, tarp lined area, "baby" pool, etc.
             The collection will be cleaned and disposable equipment will be disposed of as part of
             the asbestos-containing material.

     c.      Trailers utilized to transport asbestos-containing material will be cleaned as above or
             lined with a disposable liner that will be disposed of along with the final load at the
             licensed landfill.

     d.      Hand tools, if used, will be thoroughly rinsed with the rinse water captured on-site in a
             similar manner to the heavy equipment.

     e.      Workers handling or coming in contact with asbestos-containing material will wear
             disposable Tyvek suits or equivalent, respirators (as necessary), and gloves (as
             necessary). All disposable safety equipment including used respirator cartridges will be
             disposed of as asbestos-containing material.




                                                 32
                                                                                     Appendix B

                                Scope and Methodology

To assess whether the Fort Worth Method - Phase II adequately protects human health and meets
the key Project XL criteria, we reviewed numerous statutory, regulatory, and guidance
documents. These included the Clean Air Act, the Asbestos Hazard Emergency Response Act
(AHERA), the Asbestos School Hazard Detection and Control Act (ASHERA), and the Asbestos
National Emission Standard for Hazardous Air Pollutants (NESHAP). Further, we reviewed
numerous Federal Register Notices that were issued during the development and evolution of the
Agency's Project XL Program, as well as EPA Project XL Program guidance documents. We
also reviewed a prior GAO report, Overcoming Obstacles to Innovative State Regulatory
Programs, (GAO-02-268). This report discussed the challenges faced by state, county, or
municipal governments when proposing and implementing alternatives to existing federal
regulations.

In order to better understand the proposed Fort Worth Method - Phase II demolition process, the
evaluation team, including our Certified Industrial Hygienist, toured the proposed Phase II
demolition site. We also reviewed numerous Fort Worth Method documents, including the Fort
Worth Method document, the Project XL Proposal document, and the Quality Assurance Project
Plan. We also interviewed staff from the Fort Worth Method Project XL Team, including
officials from OECA, OAQPS, ORD, OPEI, and Region 6. We collected and reviewed various
written comment documents that were produced by each of these team members.

In order to ascertain the views of external stakeholders regarding the efficacy of this proposal, we
contacted a total of 15 industry associations, environmental groups, and other Federal Agencies.
We provided them with the following Fort Worth Method Documents:

S      The Fort Worth Method Document, dated May 23, 2002;
S      Table - 1: Comparison of the Asbestos NESHAP and the Fort Worth Method for
       Demolition of Substandard Structures (developed by Fort Worth, undated);
S      Asbestos Management in the Demolition of Substandard Structures as a Nuisance
       Abatement, dated September 30, 1999 (in two parts); and,
S      Quality Assurance Project Plan: Ambient Air Monitoring for Asbestos During
       Demolition of Substandard Structures in City of Fort Worth, Texas (Project XL).

After providing these documents, we scheduled structured interviews with each stakeholder
group and requested information and input on the Fort Worth Project XL proposal and the
current Fort Worth Method documentation, including:

       •       whether site preparation, material assessment, and demolition procedures for
               RACM is adequately described;

       •       whether work practice requirements for wetting/Misting No Visible Emissions is
               adequate;
                                             33
       •       whether the design and methodology of the proposed asbestos demolition method
               is adequate to protect human health;

       •       the expected environmental performance of the proposed asbestos demolition
               method; and,

       •       whether the method should be peer reviewed before moving forward.

In selecting the external stakeholder groups, we first obtained input from internal stakeholders,
including the City of Fort Worth, Region 6, OAQPS, ORD, OPEI and OECA by providing a list
that we developed based on organizations that commented on the most recent revision of the
Asbestos NESHAP, research, interviews and our knowledge. We then requested that those
stakeholders respond whether the groups on the list are essential and add other organizations to
the list that they believe are essential to contact that are not on the list.

After each internal stakeholder had made their selections, we used the responses to identify all of
the groups that two or more internal stakeholders had recommended that we interview. We also
judgmentally selected organizations that were identified by only one internal stakeholder as
"Essential". All groups identified by OPEI were interviewed because all groups they identified
were also identified by at least one other internal stakeholder. Region 6 first responded that we
should not eliminate any of the original list, but then recommended that we not contact one
group. We then contacted the selected organizations to determine if they would agree to review
the Fort Worth Method Proposal and participate in an interview with the OIG.

The list below identifies the 15 external stakeholder organizations that agreed to be interviewed:

               •      Agency for Toxic Substances and Disease Registry
               •      American Thoracic Society
               •      California Air Resources Board
               •      Cole-McDonald Environmental Consulting, Inc.
               •      Environmental Information Association
               •      Environmental Institute
               •      HUD, Division of Healthy Homes and Lead Hazard Control
               •      International Union of Heat and Frost Insulators and Asbestos Workers
               •      Laborer's Health and Safety Forum of North America
               •      National Association of Demolition Contractors
               •      National Conference of State Legislatures
               •      National Institute of Building Sciences
               •      NIOSH, Office of Engineering and Physical Hazards
               •      OSHA Office of Compliance
               •      Sierra Club




                                                34
                                                                 Appendix C


                           Summary of Stakeholder Responses

Technical Assessment                                       Yes   No

      Useable for Very Friable Materials                    1    14
      Useable for Friable Materials                         2    13
      Useable for Non-Friable Materials                    11    4

Documentation Assessment                                   Yes   No

      Adequate Definition of Method                         3    12
      Ensure Accurate Replication                           5    10
      Provide Reliable Results                              5    10
      Serve as an Adequate Model                            5    10

Human Health Protection                                    Yes   No

      Adequate Design                                       3    12
      AHERA Measure Appropriate                             7    8

Overall Environmental Performance                          Yes   No

      Superior to the NESHAP                                1    14
      Equivalent to the NESHAP                              1    14
      Does not meet the NESHAP                             13    2

Peer Review                                                Yes   No

      Peer review prior to Phase II demolition             13    2




                                                 Page 35
Page 36
                                                                                                          Appendix D

                    Design, Methodology, and Worker Protection
                         Issues Identified by Stakeholders

                                     Design and Methodology Issues

Agency for Toxic    ATSDR indicated that, "After my review of the Fort Worth Method, I am inclined towards the use
Substances and      of this method in the demolition of structures containing very friable, friable, and non-friable
Disease Registry    ACM. It is understood that the ACM will be wetted during the demolition phase (disassembling of
                    the structure, staging and loading of ACM debris, decontamination of equipment, and the
                    transportation to an approved waste facility)." However, I do have some questions:

                    During the wetting process of the structure disassembly, will the wetting process of the ACM
                    include a surfactant? If not, the addition of a biodegradable surfactant would aid in the reduction of
                    airborne asbestos fibers from very friable and friable ACM debris and dust.

                    During transportation of the wetted ACM to an approved disposal facility, is the ACM in a wetted
                    state throughout the procedure? If not, the ACM in transport should be wet throughout the process
                    of transportation to its final destination and disposal.

                    During transportation of the wetted ACM to an approved disposal facility, is the ACM in a wetted
                    state stored in a leak proof container, and not exposed to the open atmosphere? If not, the ACM
                    should be stored in such a leak proof container so as to be totally enclosed during transportation. In
                    addition, a simple cover over the ACM would not suffice. The wetted ACM would dry out quickly
                    (especially during hot days and with wind drying), thus introducing dry ACM dust and debris to the
                    atmosphere. The ACM should be stored during transportation, in a leak proof and totally rigid
                    container.

American Thoracic   It is likely that asbestos emissions could be missed by the air monitors because the overall testing
Society             requirements seemed incomplete. In the QAPP, Section B 1.1 calls for 10 sampling locations, 5
                    upwind and 5 downwind. Overall, this is an appropriate strategy, but there did not seem to be
                    enough monitors to capture all of the likely emissions. Further, air monitoring alone is not
                    sufficient. There should be methods that capture and test wetting water to ensure that asbestos was
                    not being released into the environment through a different media. Finally, there should be a
                    comparison test between the Fort Worth Method and the NESHAP. However, the current method
                    is not sufficient to serve as a methodology for that comparison test.

California Air      The AHERA requirement was supposed to be used as a clearance after asbestos removal had been
Resources Board     conducted under containment. [AHERA] is an aggressive test when used on schools and fans and
                    leaf blowers are used to test for asbestos while containment is still in place. The Fort Worth
                    Method would not be an aggressive test. The perimeter monitoring would not represent sufficient
                    air flow and may not reflect what is actually in the air. It is not clear how far away the monitors
                    would be [from the demolition].

Cole-McDonald       There should be a 3rd party contractor onsite to observe the process and verify that the demolition
Environmental       is conducted correctly. Some of the requirements (such as following all applicable OSHA
Consulting, Inc.    requirements) were in the Method document, but the document also references the QAPP regarding
                    some of the technical requirements.

Environmental       The Fort Worth Method does not meet the current NESHAP requirements. However, the method
Information         could be used effectively on some non-friable materials, but this is currently allowed under the
Association         NESHAP. "Better enforcement of existing regulations is more important than relaxing the current
                    NESHAP requirements." "Relaxing the current requirements will open the door to lower quality,
                    less enforced demolitions." With the problems that EPA has had with Libby and the World Trade

                                                    Page 37
                       Center issues, this project seems like the wrong thing to be doing. Also, the only benefits that were
                       cited by the proposal were reduction in costs. "To be looking at a rule change exclusively on costs
                       isn't the right thing to do. The likelihood of a contractor messing this up is much higher than
                       messing up the current NESHAP requirements."

Environmental          The sampling plan does not address what will happen if the air samples come back and indicate
Institute              that there was an asbestos release that exceeded the level. There are not provisions in the plan for
                       what will happen, what the City will do, or how the municipality will deal with the liability issues
                       that may occur as a result of exceeding the asbestos level. "This contingency should be planned
                       for, and it is not there." "If you go to the preamble of the AHERA statute, then 70 is an acceptable
                       level, because statute says that 70 it is an acceptable level for school children to be exposed to."
                       However, there is an issue with the sampling plan. According to the QAPP, TEM analysis would
                       be conducted on samples collected on the machinery and the personnel. However, if this is the
                       case, then it should be applied to the perimeter samples as well. According to the QAPP, the
                       perimeter air samples will be analyzed with PCM, rather than TEM. They assumed that this was
                       due to the overall costs. However, this seemed backwards, and that TEM should be dropped on the
                       personnel, and added to the perimeter. The current analysis process is more stringent in analyzing
                       the samples on the workers and the machinery, and less stringent on analyzing the samples that
                       would indicate whether asbestos is being released off-site. TEM should be added to the perimeter
                       testing, but that if doing TEM on all samples were too costly, then the TEM should be added on the
                       perimeter samples and dropped from the personnel and machinery samples.

HUD, Division of       HUD commented that the method does not meet the NESHAP, and that after reading the
Healthy Homes and      comparison table, they realized what the Fort Worth Method was attempting to do. The Fort
Lead Hazard Control    Worth Method is trying to jump from the NESHAP to the eminent collapse exemption, and this
                       would change the whole approach to the NESHAP. HUD further commented that they have had
                       experience with conforming to the asbestos NESHAP and this proposal attempts to avoid a lot.
                       HUD stated that it only addresses over 160 square feet of spray-on fireproofing or more than 260
                       LF of TSI.


International Union    Where will the air monitoring stations be located? This is too variable, regarding the movement of
of Heat and Frost      air. Perimeter monitoring should be conducted on all sides to capture any asbestos released. Also,
Insulators and         asbestos fibers can remain airborne for days. What is to say that all of the fibers that are released
Asbestos Workers       from the site will be captured by the monitors. "They are using AHERA because they think that
                       they can pass that requirement, but they will ignore what they want to ignore. The demolition will
                       not be contained, and there will be no aggressive tests, such as use of a leaf blower to stir up the
                       dust, like the ones required under AHERA containment clearance." "The samples will miss the
                       material." "There is maybe a 1% chance that fibers will be captured using this method." This
                       proposal is no where near the requirements that are there to be met. This design and methodology
                       could lead to a larger exposure of asbestos than would be achieved under the required processes of
                       containment. The last line of defense is the "plastic bubble." "Using the proposed method, can the
                       City of Fort Worth guarantee that the ground is clean? What about the liability that the City may
                       incur by conducting this process and then later learning that it had contaminate the soil with
                       asbestos. Will the public end up paying to clean up these demolition sites someday when they
                       become Brown fields?"

Laborer's Health and   The Fort Worth Method did not meet the NESHAP requirements. Laborer's said that this method
Safety Forum of        was not appropriate for friable materials, that it was not equivalent to the NESHAP, and should not
North America          be used in lieu of the NESHAP. Laborer's did state that it may be okay for non-friable materials,
                       and thought that was the intention of the Fort Worth Method, because the Table that was submitted
                       along with the proposal (Table 1) stated that, "Spray-on fireproofing and large quantities of thermal
                       system insulation will be addressed under full containment conditions."

                       Laborer's stated that, based on their interpretation of the Fort Worth Method, that it only applied to
                       structures with less than the NESHAP asbestos threshold of 160/260. As a result, Laborer's
                       evaluated the method from the perspective that it would be used for demolitions with non-friable
                       materials using mechanical means. Laborer's stated that the method seemed sound for this limited
                       scope, although he had some questions regarding the air monitoring.


                                                        Page 38
                        Laborer's stated that, overall, this proposal left a bad taste in his mouth. Laborer's didn't know
                        exactly what was covered by the proposal, and what was not. Laborer's said that on the surface, it
                        looked adequate for materials that were non-friable, and for volumes of asbestos that were below
                        the NESHAP, but that Laborer's was concerned about what precedents may be set, and how it may
                        be interpreted in the future.

                        Laborer's stated that the method should not be used for Very Friable or Friable materials.
                        However, Laborer's did state that it may be able to be used for non-friable materials, if some
                        modifications were made, as discussed regarding air monitoring methods and clarification of the
                        specific assessment and demolition processes.

National Association    With regards to Air Monitoring, the City does not specifically state who will conduct the air
of Demolition           monitoring, or if it will be paid for by the City or the contractor. It should be the City using an
Contractors             independent contractor. If it were the contractor, it would be like the fox guarding the henhouse.
                        A bulldozer should not be used because the tracks could tear up the material (break it down making
                        it friable). An excavator should be used instead.

                        Also, the documents do not spell out who will determine whether the demolition material, after it is
                        on ground, is contaminated or non-contaminated. This determination should be done by a third
                        party hired by the City, not the contractor. Contaminated waste should not end up at the landfill. It
                        is important to identify who will determine separation, because, "We don't want asbestos
                        containing materials to end up in the recycling stream."

                        Further, there are numerous types of pipe wrap and while some may be okay, some cannot be
                        adequately wetted. Water will not work on some materials (specifically, "mag-block" elbows,
                        fittings, etc.) and the minute someone hits these materials it will become airborne. If materials
                        have been painted over several times, water might not get in. The degree of friability does matter.

                        As an indicator, (AHERA) is appropriate. This measurement requires TEM analysis, which is very
                        expensive. The method should use PCM and if any fibers are found then use TEM. However, the
                        asbestos could be removed for what it would cost for the TEM analysis. The savings would not be
                        40-60% (as estimated by the City). Savings will be closer to 10 percent if sampling was reduced.
                        Also, the savings estimate did not include the chance that more materials may have to be taken to
                        an asbestos landfill, and it would be tough to argue that any of the debris was not contaminated.

National Conference     NCSL said that states already have enough troubles with enforcing the current requirements and
of State Legislatures   just believe that this (Fort Worth Method) will simply cause more problems with both enforcement
                        and compliance. Further, the states think their jobs are difficult at best, and while they would
                        welcome a change, it would need to be viable and workable for BOTH the contractors and the
                        enforcers.

                        NCSL did not believe that the method was sufficient for either very friable or friable materials, and
                        said that some states are even debating the safety of leaving floor tiles in place, so was unsure
                        about the use of the method for this level of materials. The Fort Worth Method is not as protective
                        as the current NESHAP. However, some states would like to see EPA revisit the NESHAP
                        requirements, and if some of the requirements were removed that would make the entire regulation
                        more enforceable, then the states may be willing to make that trade-off. NCSL also said that the
                        Fort Worth Method should be peer reviewed. However, this review should include state and
                        federal regulators, the regulated community, and those that are or will be impacted by a change to
                        the NESHAP.

National Institute of   As one of the 26 people on a committee that advised EPA on this measure [AHERA], the 70
Building Sciences       structures was the lowest level measurable because of contamination of the filters. Nobody ever
                        said that 70 structures was a safe level. Also, this measure is specific to inside containment. The
                        standard should be the average upwind, ambient levels, which is well below the AHERA standard.
                        If the method works, there should be no statistical difference between the upwind and downwind
                        samples.




                                                        Page 39
NIOSH, Office of   The lack of a contingency plan was an issue. Specifically, that the method is relying on TEM
Engineering and    results for Phase I and Phase II, and these take time to process. Therefore, the people supervising
Physical Hazards   the demolition are not going to be in the position to know if asbestos has been released or
                   concentrations were elevated above the allowable limit until after the release has occurred. Also,
                   there will certainly be times when measured readings exceed the allowable limit, and where no
                   visible emissions were witnessed. The AHERA is appropriate because, since the 70 structures per
                   mm is actually based on the statistical LOD of the TEM method, an adequate safety factor is
                   introduced. Also, a PCM-equivalent site analysis is required by the QAPP that can be used to
                   compare with health-based standards (if detectable asbestos concentrations are ever detected.)

Sierra Club        The method is unclear as to the amount of material that can be left in the structure, and the level
                   that triggers the need to remove materials prior to demolition. The big concern is the wetting
                   procedures, because they aren't planning on removing the ACM before demolition. Asbestos may
                   migrate during the demolition. How you can wet the outside of a building and get the ACM
                   adequately wet. Do not see how the method was going to get the interior duct work wet. Also, I
                   didn't see any methods for public safety, including required fencing, warning signs, barricades, etc.
                   This is considered site preparation, and it was not included in the method. There should be
                   procedures for how the site will be managed when the crew is not working, such as overnight and
                   over weekends, etc. Finally, with regards to friable and Class II materials, there are concerns with
                   the use of heavy machinery during demolition.

                   How will they keep materials wet during the off hours. With regards to the heavy equipment used
                   during the demolition, there was no mention of wipe sampling or cleaning protocols for that
                   machinery. Asbestos gets everywhere, and can easily go into the machinery block, air filter, etc.,
                   and it is possible that maintenance workers could be exposed if equipment decontamination is not
                   specified. Will they be inside wetting, or just outside, and how they know if thoroughly wet if not
                   checking inside the wall covering.

                   Once soil is contaminated, it is very expensive to get asbestos out of it. Once rubble is on the
                   ground, it is very difficult to segregate the material. It is going to have to be kept wet, excavated
                   down to the soil, and then hauled to an Asbestos landfill. Further, certain types of asbestos, such as
                   amosite, does not wet well, so this could pose an additional problem.

                   The method should be assessed on a site-by-site basis, and not generalized across all buildings.
                   The data from the Amanda Avenue site (pre-Phase I test) demonstrated a several-fold difference
                   between the upwind and downwind levels, and the results to support the method do not identify the
                   types of ACM that are on the site. This exposure indicates that the method is not doing a very good
                   job of containing the asbestos. Also, since this was included in the proposal, one would assume
                   that the method most likely had worse results/data that were not included. Either Ft. Worth is not
                   wetting the structure sufficiently, or that there are flaws in the overall process.

                   While the Quality Assurance/Quality Controls (QAQC) are elaborate, nowhere in the QAPP were
                   there specific amounts that stated a pass-fail level. This is important. Also, while the QAPP
                   covered EPA requirements, it did not cover the OSHA requirements very well. There was no
                   provision for down-stream asbestos sampling for surface and storm-water runoff. They
                   recommended that the method explicitly state the number of monitors, and where they will be
                   placed both upwind and downwind. Unless the tests uses a statistically significant number of
                   monitors to capture asbestos during demolition, there is no way to determine if the test has
                   identified the "worse-case scenario" of asbestos release. Air monitoring needed to be done every
                   time that the method was performed, and should not be exempted on days where it expected to rain.

                   While these documents address asbestos issues, it should also have a general paragraph or two that
                   required the identification of other hazards, such as mercury ballasts from fluorescent lights,
                   Leaking Underground Storage Tanks, and lead paint.




                                                   Page 40
                                           Worker Protection Issues

Agency for Toxic          There did not seem to be sufficient "worker education" information. There should be
Substances and Disease    information regarding the type and amount of training necessary in order to do the Fort Worth
Registry                  Method.

International Union of    The use of the bulldozers/heavy equipment increases the likelihood of releases that could
Heat and Frost            impact the machinery operators, and we do not believe that worker's safety is sufficiently
Insulators and Asbestos   addressed in the method either. "Whenever you work with asbestos, you must take steps to
Workers                   protect the workers and protect the environment."

OSHA Office of            Site Preparation: With regards to all material identified in Tables A-C, there was no discussion
Compliance                for establishing a "regulated area," which is required by OSHA if TSI, Surfacing materials, or
                          Class I asbestos work is being conducted. Further, there are no procedures for decontamination
                          of workers, including the provision of showers. Also, if an alternative demolition procedure is
                          going to be conducted, that the entity responsible for the demolition is required to retain a
                          project designer that will develop an alternative procedure for conducting Class I asbestos
                          work. The Fort Worth Method does not include these provision.

                          Material Assessment: It was unclear if the correct AHERA material assessment would be
                          conducted (in accordance with 40 CFR 763(e)). It was assumed they would conduct the
                          assessment in accordance with these requirements, but it was not specifically stated.

                          Demolition Procedures: The demolition procedures are just not clear enough, and do not
                          provide enough information regarding how the demolition process would be conducted. The
                          method needs to include the requirement for there to be a "competent person" on sight during
                          demolition. Also, the method was not detailed enough, "one guy could do this one way, and the
                          next guy could do it totally different." "To get consistency, this needs to be a lot more detailed
                          on how everything will get done." The method does not ensure that the OSHA required
                          procedures for developing an alternative work practice will be followed. Need to determine
                          how they will ensure that exposures will be below the OSHA PEL, including the requirement
                          that there be a competent person on site.

Sierra Club               The whole section on Worker's Protection is minimal, especially related to the respirator
                          requirements. The only Personal Protection Equipment (PPE) mentioned is a Tyvek suit, and
                          the method states that a respirator is optional. That shouldn't be left to the contractor to decide.
                          Also, PPE should include eye protection, hard hat, gloves, and safety shoes. Also, employee
                          training requirements were not addressed, and personal sampling was not mentioned, including
                          a personal sampling plan, procedures, or sampling protocols.




                                                        Page 41
Page 42
                                                                                                       Appendix E

                     Concerns Regarding the AHERA Clearance Level
The Quality Assurance Program Plan (QAPP) for Fort Worth's Project XL uses the EPA indoor post-abatement
clearance level to determine success in outdoor asbestos abatement work. This clearance level was developed as
part of the regulations implementing the Asbestos Hazard Emergency Response Act (AHERA). Under the AHERA
regulations, there are two alternatives for clearance of interior school areas following abatement:

     1.    Ten samples must be taken and analyzed using Transmission Electron Microscopy (TEM) using the
           sampling and analytical protocol specified in the regulation (40 CFR 763, Appendix A to Subpart E).
           Five samples are to be taken from outside the abatement area, and considered as background. Five
           samples are to be taken from inside the abatement area after abatement but with protective plastic
           sheeting still in place. The average of the outside samples is compared statistically using the students'
           T-test. If the inside average is not larger, to a 95% confidence interval, than the outside average, the
           area may be considered clean.

     2.    As an alternative, so that fewer samples would be required, the inside samples could be compared to the
           estimated asbestos background contamination level which analysts found in the mixed cellulose ester
           (MCE) filters used when the sampling/analytical protocol was developed in the early 1980's. Three
           indoor sampling/analysis results could be compared to the background contamination level - 70
           structures per millimeter squared. If the average of the analysis results was less than 70 s/mm2, the
           abatement could be considered complete. Appendix A (mandatory) to the AHERA regulation is a
           sampling, TEM analysis, and clearance protocol for determination whether a school building area can be
           re-occupied after asbestos abatement work.

40 CFR 763.90(a)(i)(3)further provides that "...An action shall be declared complete when...the average asbestos
concentration of the three blank fields described in Appendix A to the subpart is below the fiber background level,
as defined in Appendix A of this subpart, of 70 structures per square millimeter (70 s/mm2)."

In neither of these alternatives was the clearance criterion based on health considerations. EPA chose to allow
these alternatives because the policy toward all carcinogens was, and is, that there is no safe level of exposure to a
known human carcinogen, and the only permissible approach toward a carcinogen must be to minimize exposure to
the lowest level possible. In the one alternative, this meant background air levels in a clean area; in the other, it
meant the background contamination level of the analytical filter commonly in use. Thus, the AHERA clearance
criterion was an economically expedient alternative which, if followed carefully, could ensure the lowest asbestos
air levels then measurable using the AHERA analysis protocol. As a result, the AHERA criterion is not health-
based.

Further, with respect to the differences discussed above, research conducted on sampling performed for the World
Trade Center explosions indicates that the background asbestos contamination level now expected for MCE filters
used in TEM sampling is 15-20 s/mm2. In addition, an earlier draft of the Project XL QAPP, (August 17, 2000)
which utilized an ISO analytical method (ISO 10312:1995, Ambient Air - Determination of Asbestos Fibers -
Direct Transfer TEM Method), calls for a quality control level of 10 structures/mm2 for filter media (section
B.5.2.1). If the original AHERA criterion were again used to select the clearance level, the AHERA clearance level
would now be 10-20 s/mm2. The AHERA regulation has not, however, changed along with this technological
improvement.




                                                      Page 43
Page 44
                                                                                                       Appendix F

                                          Revised Fort Worth Method
                                              [September 23, 2003 Version]

1.   Declaration of Substandard Structure

     a.   The City of Fort Worth Minimum Building Standards Code (MBSC)1 establishes the minimum
          standards for the continued use and occupancy of all types of buildings and structures within the City of
          Fort Worth, regardless of the date of their construction, in order to safeguard the public health, safety
          and welfare and to protect property. When a structure does not meet these standards, the City's
          Department of Code Compliance is tasked with enforcing the MBSC and requiring the owner to bring
          the structure into compliance or to demolish it. When the owner fails to comply, the City has two routes
          by which it can require that action be taken:

          1.           an administrative hearing before the Fort Worth Building Standards Commission, pursuant to
                       Chapter 7, Article IV, of the Fort Worth City Code, to order the owner to bring the structure
                       into compliance with the MBSC or demolish it;

          2.           or a civil suit, pursuant to Texas Local Government Code Chapter 54, subchapter B2, for a
                       mandatory injunction to compel the structure's demolition or repair.

     b.   When the owner fails to bring the structure into compliance with the MBSC or to demolish it, despite an
          administrative order or mandatory injunction, the City itself may opt to demolish it.

     c.   In some instances, the City may have taken possession of the facility through property tax foreclosure,
          subsequent to the administrative or judicial order. The City must then acquire the approval of the other
          local taxing entities prior to demolishing the structure. These include Tarrant County, Tarrant County
          College, Tarrant County Hospital District, Tarrant Regional Water District, and the various independent
          school districts located within Fort Worth.


2.   Asbestos Assessment and Removal

     a.   Once the decision has been made that the City will proceed with the demolition of a structure, the City
          will contract for a thorough asbestos assessment of the facility, conducted by an asbestos inspector3 with
          Environmental Protection Agency accreditation and a Texas Department of Health (TDH) license. The
          City will obtain an administrative search warrant to gain access to the site for purposes of the
          assessment.4 The asbestos inspector will prepare a written report of the findings.

     b.   The assessment will identify asbestos-containing building materials (ACBM) and their location within
          the facility in accordance with the requirements of the



               1
                Reference to Appendix A of the new method.
               2
                Reference to Appendix B of the new method.
               3
                25 Texas Administrative Code §295.50
               4
                Texas Code of Criminal Procedure, Article 18.05
                                                              Page 45
          •        Asbestos Hazard Emergency Response Act (AHERA), 15 USC §§2641 et seq.
          •        Asbestos School Hazard Abatement Reauthorization Act (ASHARA), 20 USC §§4011 et seq., and
                   the
          •        Texas Asbestos Health Protection Act (TAHPA), Texas Occupations Code, Chapter 1954.

    c.    The assessment report will be written by the asbestos inspector and reviewed for completeness and
          quality by a TDH-licensed asbestos management planner5 or asbestos consultant.6


3. Worker protection

    While performing demolitions under the Fort Worth Method, worker protection measures will be handled as
    follows:

    a.    By contract, the City will require its demolition contractors:

          1.       to comply with all applicable Occupational Safety and Health Administration (OSHA) regulations
                   for worker protection including but not limited to 29 CFR 1910 and 29 CFR 1926; and

          2.       to comply with the National Emission Standard for Hazardous Air Pollutants for Asbestos
                   (Asbestos NESHAP) by providing a NESHAP-trained individual to oversee the demolition
                   process.

    b.    During Phase 2 of the City of Fort Worth Project XL project, the City will separately contract with a
          TDH-licensed asbestos consultant to provide third-party oversight of the demolition process. The
          consultant will have a certified industrial hygienist (CIH) on staff that will actively participate in the
          development of the Quality Assurance Project Plan (QAPP), work methods, etc. This third-party
          oversight will not be required following a determination by the EPA that the Fort Worth Method is
          equivalent, for the purpose of proceeding to Phase 3.


4. Demolition Method

    a.    There are five (5) categories of substandard structures the City of Fort Worth encounters when pursuing
          nuisance abatement:

          Category 1.           Structure that does not meet the definition of facility under the Asbestos NESHAP.

          Category 2.           Structure that meets the definition of facility under the Asbestos NESHAP, but that
                                contains no asbestos-containing materials (ACM);

          Category 3.           Structure that meets the definition of facility under the Asbestos NESHAP, and that
                                contains ACM but does NOT exceed the NESHAP thresholds:
                                (Regulated asbestos containing material (RACM) is less than 260 linear feet on pipes,
                                160 square feet on other facility components, or 35 cubic feet of facility components
                                where the length and area could not be measured previously.)



               5
                25 Texas Administrative Code, §295.51
               6
                Ibid, §295.47
                                                         Page 46
     Category 4.           Structure that meets the definition of facility under the Asbestos NESHAP, that is
                           being demolished under an order of a state or local governmental Agency, issued
                           because the building is structurally unsound and in danger of imminent collapse (and
                           thus can be demolished with RACM in situ pursuant to the Asbestos NESHAP); and

     Category 5.           Structure that meets the definition of facility under the Asbestos NESHAP, and that
                           contains RACM above the Asbestos NESHAP threshold. The Fort Worth Method
                           applies only to Category 5 structures, with the limitations stated herein.

b.   If the asbestos assessment report for a Category 5 structure identifies RACM above the Asbestos
     NESHAP thresholds in the form of spray-on fireproofing (SOF) or thermal system insulation (TSI) in
     any structure, the City will then request the preparation of removal specifications for the SOF and TSI.
     SOF and TSI above the Asbestos NESHAP threshold will be completely removed prior to demolition, in
     accordance with state and federal law by a TDH-licensed asbestos abatement contractor7. RACM other
     than SOF or TSI will remain in situ during the demolition. The Fort Worth Method demolition will then
     proceed as if the structure meets the Asbestos NESHAP definition of structurally unsound and in danger
     of imminent collapse.

c.   In addition to the standard requirements of the Asbestos NESHAP, the following criteria will be applied
     to the Fort Worth Method:

     1.       The Fort Worth Method will be used to demolish structures ranging from one-to-three stories
              only.

     2.       Facilities will be demolished one structure at a time.7

     3.       Demolition contractors will have daily safety meetings prior to work commencement to ensure
              safe demolition of the structure(s).

     4.       During demolition, loading, and disposal the demolition debris will be maintained adequately wet
              as defined by the Asbestos NESHAP.8

     5.       Demolitions will be performed by heavy equipment only. No explosives will be used to explode
              or implode structures, and burning will not be utilized to demolish structures.

              A.     Heavy equipment. Typically, one or more bulldozers will be used to demolish single-story
                     buildings, and a combination of bulldozers and track-hoes will be used to demolish
                     multi-story buildings (not to exceed three-stories).

              B.     Wetting. A structure will be thoroughly and adequately wetted with water using a variable
                     rate nozzle prior to demolition, during demolition, and during debris loading. Direct
                     high-pressure water impact to the RACM will be prohibited. The variable rate nozzle will
                     be capable of delivering water ranging from a mist to a concentrated stream. The demolition
                     debris will be kept adequately wet at all times, including during handling and loading into
                     containers for transport to a licensed disposal site. During the Phase 2 demolitions, a water

          7
                   Id, §295.45 Fort Worth Method Revised 9-23-2003 Page 6.
          8
                   40 CFR §61.141 states: "adequately wet means sufficiently mix or penetrate with liquid to prevent the release
                   of particulates. If visible emissions are observed coming from asbestos- containing material, then that
                   material has not been adequately wetted. However, the absence of visible emissions is not sufficient evidence
                   of being adequately wet." Fort Worth Method Revised 9-23-2003 Page 7.
                                                          Page 47
                      meter (or equivalent device) will be installed at the water hydrant to measure the volume of
                      water used during demolition of the structure.

                C.    Collapsing structure inward. The majority of the walls and interior components will be
                      leveled on top of the building foundation, and debris will be loaded prior to removal of the
                      concrete slab if present.

                D.    Handling of demolition debris.

                      i.    When portions of a structure that do NOT contain RACM can be segregated so that
                            they can safely be demolished without disturbing the area(s) of the structure that
                            contain(s) RACM, these portions will be demolished to allow the debris to be
                            disposed at a proper landfill as non-RACM debris. The area(s) of the structure
                            containing RACM will be demolished and the associated debris disposed as regulated
                            asbestos- containing waste. Segregation will only be used when practical (e.g., a
                            warehouse building that is approximately 5,000 square feet in size and contains
                            RACM in the office area that consists of approximately 1,000 square feet then the
                            4,000 square feet of open warehouse and NON-RACM will be segregated to the
                            extent practicable to ensure RACM is properly disposed).

                      ii.   When portions of a structure that do NOT contain RACM cannot be segregated as in
                            4.c.5.D.i. above, they will be demolished in a manner (where possible) to allow the
                            NON-ACM to help contain the RACM during the demolition (e.g., non-ACM allowed
                            to buffer the RACM from ambient air during demolition and subsequent loading). All
                            demolition debris will be disposed as regulated asbestos-containing waste.

                E.    Grading. The site will be graded for future use following completion of the demolition.

    d.    Other than adequately wetting the demolition materials, no engineering controls will be in place during
          the demolition.


5. Storm Water Protection

    a.    Demolition projects typically have a minimal to no amount of runoff depending on the site location and
          site conditions.

    b.    Asbestos has not been identified as a priority or secondary pollutant in storm water runoff within Fort
          Worth, and the City expects minimal-to-no asbestos impact on runoff from any demolition site. The
          USEPA relevant standards for asbestos are:

          1.    Drinking Water Standard: 7 million fibers/liter (40 CFR 141.23 (a)(4)(i)); and
          2.    Reportable Quantity: One pound (40 CFR 302.4 (a) Table 302.4).

    c.    Construction site best management practices will be used to control runoff to the maximum extent
          practicable. Runoff from a job site will be controlled using a combination of natural drainage, manmade
          drainage channels, and silt fencing as applicable.

    d.    For large construction sites (five acres or greater) and small construction sites (one acre or more, but
          less than five acres), all applicable federal and state regulations pertaining to storm water discharges
          from construction sites will be followed. This includes the development and implementation of a storm

                                                     Page 48
          water pollution prevention plan (SWPPP) and the submittal of a Notice of Intent (NOI) to the Texas
          Commission for Environmental Quality (TCEQ) (for large sites) or the posting of a site notice (for small
          sites).

6. Air Monitoring

    During the process of showing the Fort Worth Method to be equivalent to the Asbestos NESHAP, air
    monitoring will be conducted in compliance with the applicable Quality Assurance Project Plan and the Final
    Project Agreement. No air monitoring will be performed during Fort Worth Method demolitions following
    the determination of equivalency under Phase 2. Fort Worth Method demolitions will follow the Asbestos
    NESHAP for structures that are structurally unsound and in danger of imminent collapse.


7. Disposal

    a.    As stated above in Section 4.c.D., segregation techniques will be used during demolition in an effort to
          reduce the amount of RACM debris. A NESHAP-trained individual will be required on-site to monitor
          the demolition process as well as the handling of the waste.

    b.    Demolition debris will be kept adequately wet during loading and transporting to a waste disposal site.

    c.    Demolition debris will be loaded into end-dump trailers using heavy equipment. Typically, the
          contractor will use construction trailers capable of holding 20 cubic yards of waste material.

    d.    End-dump trailers used to transport regulated asbestos-containing waste material to a licensed landfill
          will be covered with a tarp, and will be clearly marked during loading and unloading of waste.
          Transportation will be immediate and by a direct route.

    e.    Disposal will be in accordance with all federal, state and local requirements. A contractor will be
          allowed to decide which licensed landfill is a viable option.

    f.    The City will retain a copy of all waste shipment records, including a copy of the waste shipment record
          signed by the owner or operator of the designated waste disposal site, for a minimum of two years.


8. Decontamination

    a.    Care will be taken to reduce the potential contamination of other job sites by equipment. Heavy
          equipment involved in the handling of regulated asbestos-containing material may be decontaminated
          by:

          1.    Thoroughly rinsing the equipment components that come in contact with the regulated asbestos-
                containing material. On-site water supply (e.g., fire hose) will be utilized; and

          2.    Rinse water will be controlled on-site and allowed to naturally evaporate or be absorbed into the
                ground. Disposable equipment will be disposed as part of the regulated asbestos-containing
                material.

    b.    End-dump trailers utilized to transport regulated asbestos-containing material will be cleaned as in 8.a.
          above, or lined with a disposable liner that will be disposed along with the final load at the licensed
          landfill.

                                                     Page 49
c.   By contract, the demolition contractor will be required to comply with all applicable OSHA regulations
     that may include the use of personal protective equipment (PPE) such as Tyvek suits or equivalent,
     respirators (as necessary), and gloves (as necessary). All disposable PPE will be disposed as regulated
     asbestos-containing material.




                                               Page 50
                                                                                                   Appendix G

               Analysis of the Revised Fort Worth Method

City of Fort Worth Officials met with Agency officials on September 29, 2003 and provided
additional documentation, including a revised method dated September 23, 2003. The revised
method provides more details in some areas. However, in some cases, these additional details
raise further concerns. We believe this revised method is still not equivalent to the NESHAP,
and portions of the revised method may be less protective than the previous. Also, a
determination of equivalency utilizing the results of the Phase II test only is not scientifically
sound because one demolition would not be representative and the various types of buildings to
be demolished, and the types of RACM and weather conditions that could be encountered.

Table H.1 below provides a comparison of the May 23, 2002 and September 23, 2003 versions
of the Fort Worth Method.

Table H.1: Comparison of the Revised Fort Worth Method.

                   Comparison of Revised Fort Worth Method
                Fort Worth Method                                       Fort Worth Method
               May 23, 2002 version                                 September 23, 2003 version

 The method indicated that it would remove spray-       The revised method still does not specifically
 on fireproofing and thermal system insulation, but     define what materials will be included in the spray-
 did not define what specific materials would fall      on fireproofing and thermal system insulation
 into these categories.                                 categories.

 The method was unclear as to what air monitoring       No air monitoring is planned after Phase II.
 processes would be used during the 30-50 Phase
 III demolitions that would be conducted after the
 Phase II demolition was completed.

 The method did not include an independent, third       The revised method specifically states that an
 party observer that would monitor the demolition       independent, third party observer would only be
 and disposal of asbestos-containing materials and      used to verify the Phase II demolition, and would
 demolition debris.                                     not be used in the Phase III demolitions that would
                                                        occur afterwards. Therefore, there may be a
                                                        conflict of interest issue because the method does
                                                        not require a qualified independent observer to
                                                        monitor demolition activities after the completion
                                                        of Phase II.

 The method did not adequately define or describe       The revised method did not change or modify the
 how RACM would be adequately wetted, or what           wetting processes that will be used during
 testing would be conducted to determine if RACM        demolition.
 left in the structure was adequately wetted during
 the demolition.




                                              Page 51
The method did not include an immediately               The revised method still does not include an
enforceable stopping point, but rather relied on the    immediately enforceable stopping point, and
results of air monitoring to determine if asbestos      specifically indicates that after Phase II, even air
fibers had been released.                               monitoring will be discontinued. Further, specific
                                                        air monitoring procedures to be conducted under
                                                        Phase II are still to be determined and therefore
                                                        cannot be evaluated at this time.

The method was unclear regarding the criteria that      The revised method provides specific criteria for
would be used to determine if a structure would be      determining if a structure can be demolished using
demolished using the Fort Worth Method.                 the Fort Worth Method, and that criteria is much
                                                        less stringent than the requirements necessary to
                                                        meet the Imminent Hazard exemption of the
                                                        NESHAP.


    While the revised method states that, "The Fort Wort demolitions will follow the Asbestos
    NESHAP for structures that are structurally unsound and in danger of imminent collapse,"
    the method contradicts this statement by including items that are less stringent than the
    structurally unsound exemption. For example, the imminent hazard exemption under the
    NESHAP includes the requirement that no visible emissions be allowed from the section of
    the building where RACM was contained, however, this requirement is not mentioned in
    the revised Fort Worth method. Therefore it is unclear what does and does not apply.

    We also requested that key officials from OECA and OAQPS, who are both familiar with
    the Asbestos NESHAP and this project, provide us with their views of the revised Fort
    Worth Method. The OECA representatives response include the following concerns:

    •        "...this process cannot comply with the no visible emission standard.

    •        "Phase 2 is insufficient to determine equivalency especially to other types of
             construction and other types of ACM or the same types of ACM with significantly
             different concentrations of asbestos."

    •        "This one test will not be sufficient to allow the demolition of additional structures
             of different construction. They expect to extrapolate the results of Phase 2 beyond
             that which is prudent."

    •        "In my opinion the QAPP and monitoring proposal is fatally flawed and cannot
             give us the accuracy and precision needed to make the [equivalency] determination
             required by the CAA statute."

    •        "This project will not achieve superior environmental results, it may just be
             cheaper."

    •        "...the revised method does not meet the intent of Project XL, because these project
             are supposed to be ‘a model of how EPA should work with all environmental
             stakeholders.'" "This Method discriminates against the private sector so it does not
             reach the XL goal of ‘all stakeholders'."
                                              Page 52
We agree with OECA's concern that a single test will not be sufficient to make a
determination of equivalency. Based on the recent revision, the Fort Worth method will
only be tested in one side by side comparison at one specific demolition site, and then the
city will request that an equivalency determination be issued by the Agency. If this version
of the proposal is approved, and an equivalency determination is issued by the Agency, a
method that is deemed successful in one individual instance will be allowed to be used for
other demolitions throughout the City of Fort Worth. However, one individual test is not
adequate to determine the success or failure of a new demolition method. One data point
(demolition), without comparison to any other similar data points within a controlled
sample, will not provide a statistically significant pool of data that will allow the Agency to
make an equivalency determination that utilizes sound scientific principals. While opinions
vary within the field of statistics as to what comprises a sufficient sample size necessary to
develop a statistically significant level of confidence, it is statistically impossible to predict
future success from one single data point, because there are not other points of comparison.

Further compounding the test of this method is the overall number of unique or
independent variables that are likely to be encountered during different demolitions. Under
typical scientific methods, the researcher attempts to isolate one specific independent
variable within a pre-determined number of samples, and then attempts to compare the
occurrence of that one specific variable to determine if those results can be generalized with
statistically significant confidence across a larger population. However, in the case of the
Fort Worth proposal, the Phase III demolitions will include different types of buildings,
with different types and volumes of asbestos-containing materials, under different types of
conditions (temperature, wind speed, precipitation, etc.).

More specifically, in the September 29, 2003 meeting with EPA, city officials provided a
briefing document that lists the types of buildings that they plan to demolish. This list
includes bowling alleys, bars, taverns, grocery stores, automotive service stations/stores,
churches and shopping malls. However, Fort Worth proposes to test the method only once,
on one specific type of structure (an abandoned hotel), and will then attempt to use the
results of that one test to predict the outcome of using this method on other structures. We
do not believe that one test will provide sufficient data to accurately predict the outcome of
other demolitions when using this method. The method must be tested on a sufficiently
sized sample of similar structures in order to scientifically demonstrate its validity. One
single test will not provide a comparable or statistically significant data set necessary to
determine if the success or failure of the Phase II demolition can predict the success or
failure of any other future demolition where the Fort Worth method is used.




                                    Page 53
Page 54
                                                                                                            Appendix H

                       Five Attributes of Environmental Data Quality

According to EPA's data quality objectives order (Order 5360.1), five attributes of data should be known
before the data is used for regulatory decisions. These are described below.


           Attribute                                               Definition


     Precision               Precision is the average amount of variability experienced in measuring emissions;
                             it is sometimes expressed as a relative standard deviation, such as plus or minus
                             15 percent. The lower the percentage, the more precise the data.


     Accuracy                Accuracy refers to the amount of bias that a measurement may have. For example,
                             an improperly calibrated piece of testing equipment may bias a reading.


     Completeness            Completeness refers to the number of readings that must be taken before a
                             confident judgment can be made. For example, if 4 of 5 readings yield the same
                             information, decision makers may say that a reliable profile of the facility's emissions
                             exists.


     Representativeness      Representativeness involves a qualitative assessment as to whether a reading fairly
                             represents the emissions from a facility. Factors that could affect representativeness
                             include the methods used and weather conditions at the time the readings were
                             taken.


     Comparability           Comparability is the ability to fairly compare emissions results from the same facility
                             at different times. Using different sampling and testing equipment, or different
                             methodologies, could result in an inability to make such comparisons.




                                                     Page 55
Page 56
                                                                                     Appendix I

                           EPA Response to Draft Report


                                       December 2, 2003

MEMORANDUM

SUBJECT:      Comments on Draft Evaluation Report: Significant Modifications Needed To
              Ensure Success of Fort Worth Asbestos Demolition Method
              Assignment No. 2002-000654

FROM:         Richard E. Greene /s/
              Regional Administrator Region 6

              Jeffrey R. Holmstead /s/
              Assistant Administrator for Air and Radiation 6101A

              John P. Suarez /s/
              Assistant Administrator for Enforcement
               and Compliance Assurance 2201A

              J. Paul Gilman, Ph.D. /s/
              Assistant Administrator for Research
               and Development 8101R

              Jessica L. Furey /s/
              Associate Administrator for Policy, Economics,
               and Innovation 1101A

TO:           Nikki L. Tinsley, Inspector General
              Office of Inspector General 2410T

       Thank you for the opportunity to review and comment on the Office of Inspector General's
Draft Evaluation Report "Significant Modifications Needed to Ensure Success of Fort Worth
Asbestos Demolition Method". Both Fort Worth and the Agency are committed to an open and
transparent process that provides an opportunity for public comment and peer review and we
welcome your comments on the project.

        Your comments raise some legitimate questions, many of which we believe the City and
the Agency are discussing or have resolved, for example, incorporating comprehensive
monitoring into our plan as well as a strong peer review process. Along those lines, we wanted to
raise two points with regard to your draft report: the tone, which seems unnecessarily negative,
and the nature of phase 2, which is merely a test and not a broad authorization of a method.

                                             Page 57
Nature of Phase 2

         The draft report also does not appear to recognize that we are still at an early stage See Appendix J
of this project. Any concerns regarding broad use of the alternate method seem                  Note 1
premature. We have completed a preliminary Phase I test on a structure that is not within
regulatory jurisdiction, and on the basis of that test, have merely decided to proceed with a
second test on a building that is subject to the NESHAP regulation. It is, however, simply a test.
If that test fails, then the method must be changed or abandoned. No broadly applicable change
will occur unless and until the tests prove to be successful, and the Agency has gone through a
regulatory process with full public comment.

        The prospect of the new method proving to be successful is an important one, however,
since Mayors around the country have been unable to address all of the delapidated and dangerous
buildings in their communities due to cost constraints associated with the traditional NESHAP
method. If the alternative method proves to be equally effective and protective, it can be carried
out at far lower cost, thereby enabling cities to rid more communities of buildings needing
demolition, buildings which far too often have become homes to drug dealers or that simply pose
dangers to children as attractive nuisances. We are endeavoring to carry out these tests in a
scientifically sound manner so that we make the best decisions we can, and many of your
comments are helpful in that process.

Negative Tone of OIG Report

        The OIG report seems to have an unnecessarily negative tone. We are concerned          See Appendix J
that negative comments were included in the draft report and were emphasized, while            Note 2
positive comments were not provided. There were numerous positive and meritorious
comments made by the XL partners that were not included in the OIG draft report. For
example, ORD provided comments on Phase I regarding the potential utility of a more economical
demolition technique, assuming equal environmental protection. Also, Region 6 commented on
the urgency of demolishing many buildings that were being used for drug houses and crime
centers, etc. The end result of omitting potentially balanced, positive comments leaves the draft
report reader with a somewhat slanted and unnecessarily negative impression.

         Similarly, several major OIG draft report concerns (e.g., peer review, committing EPA
staff to work with Fort Worth to better document the method, etc.) have already been addressed by
the Innovative Action Council (IAC). These major concerns received strong OIG criticism in the
beginning of the draft report, including the Executive Summary. However, not until page 24 does
the OIG acknowledge that these issues are being addressed. Also, there is severe criticism of the
Phase I site for not being a NESHAP class structure and for not doing side by side comparisons,
when the XL team was prohibited from conducting the first test on NESHAP structures. The
structure used in the Phase 1 test was expressly chosen because it was not a NESHAP-regulated
structure.

       We would encourage you to examine the content of the report, as well as the tone.



                                             Page 58
Next Steps

        As you know, your staff reviewed and commented on the beginning phases of a         See Appendix J
multi-year project that is continuing to evolve. Fort Worth and the Agency have not         Note 3
reached agreement on the methodologies and processes for Phase II of the project and
discussions are ongoing. We hope to reach agreement by January 30, 2004, in order to
submit the documents for peer review and public comment.

       Since many of the documents your staff reviewed were under development, changes have
been made to the documents which render many of the reports, observations, and comments out of
date. However, in an effort to provide useful responses for your final report, we have referenced
the updated documents, where appropriate, and note that many of the documents are still under
discussion.

       Please find attached EPA's coordinated comments to the Draft Report and to the Inspector
General's Recommendations. If you have any questions, please contact David Bond
(214) 665-6431.

Attachment(s)




                                            Page 59
          Comments on the Office of Inspector General Draft Evaluation Report
 "Significant Modifications Needed to Ensure Success of Fort Worth Asbestos Demolition
             Method" (Assignment No. 2002-000654, dated October 17, 2003)

Executive Summary

Page i        Statement: The City has proposed a three-phased approach to obtaining EPA's
              approval of the Fort Worth Method. Phase I testing of the proposed Method
              occurred in 2001 on a small building that did not possess enough RACM to be
              regulated by the asbestos NESHAP. Phase II testing is planned for a large,
              abandoned hotel that contains enough RACM to be regulated by the asbestos
              NESHAP.

Response 1: There appears to be a common misunderstanding throughout the                  See Appendix J
            report with respect to the structure selected for the Phase I test. The       Note 4
            structure selected for the Phase I test was specifically selected because
            it did not trigger NESHAP regulations; that allowed for an early,
            small scale test without the need for regulatory exemptions. EPA required
            that Phase I be added to the proposal submitted by Fort Worth, that the
            structure MUST NOT trigger NESHAP regulations, and that sufficient
            asbestos be in the structure to meet evaluation criteria. The structure that
            was selected contained 3438 sq ft of surfacing materials containing 2-percent
            chrysotile, a sufficient amount to meet evaluation criteria. If the Phase I test
            had failed the evaluation criteria, the project would have ended. Because it
            was successful, the Agency now plans to proceed with a second test on a
            building that would trigger NESHAP regulations.

Page ii       Recommendation: EPA assist Fort Worth in modifying the Fort Worth Method to
              produce a single, finalized technical specification document that fully describes the
              Fort Worth Method, including the demolition strategy and associated Quality
              Assurance Project Plan (QAPP), and that this proposal be externally peer-reviewed
              prior to testing.

              We recommend that EPA work with the City of Fort Worth to develop a Final
              Project Agreement that adequately addresses key project XL Criteria for the entire
              proposed project (Phase II and Phase III), and that EPA ensure that Project XL
              team concerns are adequately addressed.

              We recommend that EPA develops comprehensive Agency guidance for
              conducting oversight of these proposed projects. We recommend that EPA assist
              the City of Fort Worth in designing a demonstration project that can be used to
              reach complete, reliable, and valid conclusions, and that EPA works with the City
              to ensure that the structures chosen for the Phase II demolition contain sufficient
              asbestos to provide representative test results. We also recommend that EPA
              develop and propose Federal rules and regulations for handling Innovation
              proposals, including the opportunity for public notice and comment.
                                            Page 60
Response 2: EPA concurs with the majority of the recommendations. The XL
            criteria were considered in our decision to undertake at least a          See Appendix J
            preliminary phase of the Fort Worth's proposed project (Phase 1).         Note 5
            We will continue to employ criteria such as these as we move forward
            to design and implement Phase 2. We will insure that there is a robust
            stakeholder process, and an appropriate legal mechanism for this phase of the
            project. EPA has already determined that a prerequisite for going forward
            with the Phase 2 test includes having the Method and the QAPP peer-
            reviewed. In addition EPA will work with the city on a project agreement
            that addresses the appropriate criteria. (Note: These recommendations and
            EPA response are set out in more detail in Chapters 2, 3 and 4.)

Pg ii         Statement: Although initially proposed in September 1999, the Fort Worth
              Method does not yet meet EPA's Project XL criteria of superior environmental
              performance, appropriate regulatory flexibility, adequate stakeholder involvement,
              or transferability.

Response 3: The Agency does not agree with this statement. See response 18, 20               See Appendix J
            and 23.                                                                          Note 6

Pg iii        Statement: Given the number of variables involved, it is questionable
              whether a single test – as described in the latest proposal – is adequate to
              statistically determine the success or failure of a new demolition method in
              accordance with sound scientific principles.

Response 4: EPA agrees with the IG on this assessment and has begun discussions for
            additional tests with the City.

Main Report

Chapter One - Introduction

Pgs 1 & 5     Statement: This proposal was introduced under Project XL, other cities may use
              the data generated by this project to justify similar demolitions. Some have already
              requested information related to this project.

Response 5: We disagree with this statement. There has been no change to               See Appendix J
            NESHAP that would allow another city to use the Ft. Worth method.          Note 7
            The project is a test to help determine whether a later change to the
            NESHAP may be viable; if the test is unsuccessful, there will be no
            basis for a later change to the NESHAP that could be used by many cities.
            Both Fort Worth and EPA want the pilot process to be open, therefore as the
            pilot proceeds other cities may request information. The test is of broad
            interest because if it is successful in showing an equivalently protective
            method at much lower cost, it has the potential to help many cities demolish
            dangerous, abandoned buildings.
                                            Page 61
Pg. 3         Statement: Appendix A provides a detailed description of the Fort Worth Method.

Response 6: Appendix A has been superseded. The latest version submitted by the
            City was given to a representative of the IG's office at a September 29,           See Appendix J
            2003, meeting.                                                                     Note 8

Pages 4 & 9   Statement: In order to obtain external perspectives of the proposed Fort
              Worth Method, we also interviewed 15 external stakeholder groups from industry
              associations, environmental groups, academic organizations, and other Federal
              Agencies. We selected these groups based on information identified during our
              research, and with input from EPA and the City of Fort Worth. Details on the
              scope and methodology, and selection of external stakeholder groups are included
              in Appendix C.

Response 7: EPA is unable to respond to this statement based on the fact that we    See Appendix J
            are uncertain what the interviewees were given to review for the        Note 9
            purposes of the interviews. The report should include the document(s)
            that were provided to the stakeholders, for their review, so that
            everyone who reads the report will be able to know what is being commented
            on.

Page 6        Statement: Our evaluation of the Fort Worth Method document indicates that, as
              currently written, neither EPA, project officials, nor the public would have a clear
              understanding of the method prior to its implementation, and may have difficulty
              replicating this method at other locations. For example, it is unclear:
              (Bullets not at issue removed from for this document)

              •      How these materials would be tested for RACM;
              •      What instrumentation would be used for testing different RACM;
              •      What detection limits would be used in testing these materials;

Response 8: EPA does not agree with the statements, concerning testing. There       See Appendix J
            appears to be a misunderstanding concerning elements of the Ft.         Note 10
            Worth Method. The Fort Worth Method is an alternative demolition
            work practice and does not propose changing RACM testing
            requirements. The RACM will be tested as stated in the NESHAP (i.e., using
            40 CFR part 763 subpart E Appendix E). EPA will work with the city to
            clarify this point in subsequent versions of the method.

Page 7        Statement: "Another important unaddressed factor is that the Fort Worth Method
              does not provide for an immediately enforceable stopping point... . With the
              various NESHAP methods, the "no visible emissions" work practice standard
              allows for a demolition to be stopped if visible emissions are identified. However,
              the Fort Worth Method does not utilize a work practice standard, but rather
              depends on the analysis of air monitoring samples, which take several days to
              analyze."
                                            Page 62
Response 9: EPA does not agree with this statement. The Fort Worth Method is
            indeed a work practice, as is the NESHAP method. The Fort Worth           See Appendix J
            Method addresses the same activities as does the NESHAP, including:       Note 11
            asbestos assessment prior to demolition, adequate wetting, demolition
            process, waste and water handling, and waste disposal. The air
            sampling protocol (which is embodied in the QAPP) is not an intrinsic part of
            the Fort Worth Method. We are conducting air sampling (and water and soil
            sampling) solely as a means of measuring the effectiveness of the City's
            method against the NESHAP method. As part of the Phase 2 test, we will be
            monitoring air emissions during the demolition of a building by the NESHAP
            method, as well as during a demolition by the Fort Worth Method. In
            addition, the Fort Worth Method does include the no visible emissions
            requirement - and any demolition would be stopped if visible emissions are
            identified.

Page 8       Statement: Table 2.1 Comparison of Fort Worth Method to NESHAP
             Requirements

Response 10: EPA does not agree with this table. For example, on the row labeled      See Appendix J
             "Adequately wet RACM during demolition" appears a "No" for the           Note 12
             Fort Worth Method. The "No" should be "Yes." As stated
             previously, the Fort Worth Method contains the same requirement to
             adequately wet RACM as does the NESHAP. On the row labeled "Discharge
             No Visible Emissions" another "No" appears for the Fort Worth Method.
             This also should be "Yes," since the Fort Worth Method includes this
             requirement (see Table - 1 in Fort Worth's proposal document). Next, on the
             row labeled "Immediately Enforceable Stopping Point," the "No" for the
             Fort Worth Method should be a "Yes", since, like the NESHAP method, the
             Fort Worth method would stop demolition if visible emissions were identified.
              Finally, the entry on the row labeled "Not dependent on Air Monitoring
             Results" should be a "Yes" instead of "No." As discussed above, the Fort
             Worth Method is a demolition work practice. Air monitoring is not a feature
             of the Method, but a means of demonstrating whether the Method is
             equivalent to the Asbestos NESHAP.

Page 10      Recommendation: Table 2.2: Materials that should be Addressed in the Proposed
             Fort Worth Method.

Response 11: EPA agrees with the recommendations on identifying the types of asbestos in
             this table. The suggestions are quite helpful and will be of assistance in
             further defining the method.

Pages 10 & 11Statement

             Several stakeholders we contacted suggested that the air monitoring standard
             proposed in the Fort Worth Method (the 70 s/mm2 Asbestos Hazard and
                                          Page 63
              Emergency Response Act (AHERA) clearance criterion) is not appropriate for use
              in ambient air monitoring around a demolition site because:
              •      It is not health-based;
              •      The original reason for its development – that it represented an average
                     background contamination level on asbestos testing filters – is no longer
                     correct; and,
              •      The criterion is an indoor air, post-abatement clearance level that is used by
                     EPA to determine the success of asbestos abatement work conducted under
                     full containment.

              More than half of the external stakeholders (8 of 15) we interviewed did not
              believe that the AHERA standard was the appropriate measurement for this
              Method. One stakeholder commented that the AHERA standard was only intended
              to be used as an indoor clearance procedure after asbestos removal had been
              conducted, and while containment was still in place. He stated that the air
              monitoring outlined under the Fort Worth Method was not an aggressive test that
              requires the use of fans and leaf blowers during containment. Another stakeholder,
              who was one of the 26 people on the committee that advised EPA on the
              development of the AHERA Standard, stated that, "nobody ever said that 70
              structures was a safe exposure level, just that it was the lowest level measurable (at
              that time) because of background contamination on the filters." Today, based on
              sampling performed for the World Trade Center explosions, it has been determined
              that background contamination of filters is low enough to accurately detect
              asbestos fibers at about 15 s/mm2.

Response 12: EPA agrees in part with this statement. Demolitions will not be                  See Appendix J
             carried out under full containment procedures. The AHERA standard                Note 13
             of 70 s/sq mm (drawing about 1000 liters of air) equates roughly to an
             airborne concentration of about 0.015 asbestos structures/cc. The first
             order for evaluation of the effectiveness of the demolition was to do a
             statistical test on the upwind versus downwind concentrations to determine if
             a statistically significant difference existed; if so, the process failed (assuming
             that the test on the NESHAP method passed). The problem with this
             approach is identical to the problem that was faced in developing the AHERA
             standard, in that if the background concentrations are non-detect and
             anything is measured in the downwind, the test cannot be passed (i.e., the
             difference will always be significant) because of the way the statistical tests
             perform the mathematical calculations. Recognizing this possibility, a second
             test scenario was added and the AHERA test was chosen for convenience.
             While AHERA is not a health-based standard, it is conservative and is judged
             suitable by the Agency for reoccupancy of the building by children, who are
             at the highest risk for asbestos-related disease. As with all the documents,
             these equivalency determinations will be subject to review and possible
             change during this process.



                                             Page 64
Page 11       Statement: The placement of the ambient air monitors is not adequately addressed
              in the proposed method.

Response 13: EPA refers the Inspector General to the QAPP, since the placement of      See Appendix J
             the air monitors is not a part of the method document. They are a         Note 14
             part of the QAPP as the monitoring will only take place during the
             testing of the method. In addition, the QAPP has been revised and
             will be reviewed and peer reviewed and possibly revised again to strengthen
             the air monitoring.

Page 11       Statement: The placement of the monitors at a particular height may not capture
              all the asbestos fibers released.
              Comment: For example, some stakeholders suggested that monitoring at multiple
              heights and multiple distances may be needed to adequately determine whether
              asbestos particles escaped the demolition area.

Response 14: EPA agrees with this comment and it has been incorporated into the draft
             QAPP for the Phase 2 test . It has also been suggested some sampling be done
             from monitors suspended above the demolition area. All samples are taken
             with the intent that they will represent the whole population and you need to
             take a sufficient number to have confidence that a subset of the population
             has the same statistical tendencies that can be inferred on the population as a
             whole.

Page 11       Comment: Recently, EPA officials told us they would consider having the Phase II
              proposal peer reviewed prior to implementation.

Response 15: EPA agrees with the comment and based on decisions made during the              See Appendix J
             May 12, 2003, IAC meeting, peer review is now a pre-requisite to                Note 15
             moving forward with the Phase 2 test.

page 12       Statement: Of particular note is that Fort Worth does not plan to conduct any air
              monitoring at Project XL demolitions after Phase II. OECA officials remain
              concerned that a single test is insufficient to gauge project effectiveness.

Response 16: EPA agrees that air monitoring should be conducted as part of this              See Appendix J
             and any subsequent Phase 2 tests of the Fort Worth demolition                   Note 16
             method. EPA and the City are discussing additional monitored tests
             of the method as an addition to the Phase 2 test. OECA officials are
             satisfied on this point.

Page 13       Recommendation: We recommend that the Assistant Administrator for Air and
              Radiation, the Assistant Administrator for Enforcement and Compliance
              Assurance, the Regional Administrator for Region 6, and the Associate
              Administrator for Policy, Economics, and Innovation ensure that:


                                            Page 65
             2-1    Agency officials assist Fort Worth in modifying the Fort Worth Method to
                    produce a single, finalized technical specification proposal, including the
                    demolition strategy and associated QAPP that:

                    a.    identifies and adequately describes how each type of RACM that may
                          be encountered during demolition will be addressed;
                    b.    better defines the wetting requirements;
                    c.    is documented in sufficient detail to allow for independent
                          assessment; and,
                    d.    is evaluated based on an appropriate air monitoring standard and
                          monitoring that is representative.

             2-2.   Agency officials assist Fort Worth in fully describing the air monitoring
                    that will take place, and to determine whether the air monitoring contractor
                    would be independent from the demolition contractor.

             2-3.   Agency officials require that the Fort Worth Method is adequately peer
                    reviewed prior to implementation.

             2-4.   Agency officials outline criteria that determines the volume of RACM
                    necessary to ensure a representative comparison to the NESHAP, and assist
                    the city in locating a structure that meets these criteria.

Response 17: EPA concurs with these specific recommendations. The Agency has already
             specified that revising the method and QAPP, and peer review of the
             documents, are pre-requisites for moving with the phase 2 test.


Agreement Lacking on Key Project XL Criteria

Page 15      Statement: Although the City of Fort Worth initially proposed this project in 1999,
             four key Project XL criteria outlined in EPA's 1995 Federal Register Notice have
             not been adequately addressed, including superior environmental performance,
             regulatory flexibility, adequate stakeholder involvement, and transferability.
             According to XL requirements, each of these criteria must be satisfactorily
             demonstrated in order for an XL project to be deemed successful. The principal
             reason for the delay was because a Final Project Agreement, normally written early
             in an XL project, has not been developed due largely to internal Agency
             disagreements about the adequacy and benefits of the Fort Worth proposal.

Response 18: EPA does not agree with this statement. See Response 2.                         See Appendix J
                                                                                             Note 17
             As stated in Response 1, EPA required that the Phase 1 test be added
             to the proposal, and the slow pace of the project to date is largely a
             result of the logistics involved in actually carrying out and evaluating the
             Phase 1 test.
                                           Page 66
              The Phase 1 test was required to give the Agency more information about the
              Fort Worth Method prior to making a decision to proceed to FPA
              development. No regulatory flexibility was needed to conduct Phase 1 and we
              developed the processes and methods for the Phase 1 test with Fort Worth
              and the Texas Department of Health. All involved Agency offices concurred
              on this plan.

Superior Environmental Performance Questionable

Page 15       Statement: Based on information presented in Chapter 2, it is not clear that the
              currently proposed Fort Worth Method is equivalent to the current Asbestos
              NESHAP.

              EPA's Project XL internal team members have yet to reach agreement on whether
              the Fort Worth Method is equivalent to the Asbestos NESHAP. Both OECA and
              OAQPS expressed significant concerns about the adequacy of the proposed Fort
              Worth Method.

Response 19: The reason that the Agency is conducting multiple tests is precisely to       See Appendix J
             determine whether the Fort Worth method is equivalent to the                  Note 18
             NESHAP method. Successful completion of the Phase 1 test does not
             mean that EPA thinks that the Fort Worth Method has been proven
             broadly equivalent to the Asbestos NESHAP. See Responses 1 and 18. All
             EPA program and legal offices involved in the project simply decided that the
             criteria for success under the Phase 1 test have been met, and that the project
             should proceed to a Phase 2 test with certain pre-requisites as a result of the
             May 12, 2003, IAC meeting.

Page 16       Statement: Although aware that team disagreement had not been resolved, the
              Reinvention Action Committee decided in January of 2000 that the Fort Worth
              proposal should move forward in phases.

Response 20: EPA would like to clarify this statement. There appears to be a            See Appendix J
             misunderstanding as to the decision making process in Project XL. If       Note 19
             the staff team is unable to come to agreement, it is the responsibility of
             the Reinvention Action Council (now Innovation Action Council), not
             Committee to resolve those differences and make a decision on the issues. The
             opposing views of the Fort Worth XL project were presented to the RAC
             (now IAC) and the decision was made to proceed in January of 2000, and
             views were presented again to the IAC in May of 2003 and a decision was
             made to proceed with a Phase 2 test of the Fort Worth method.

Page 16       Statement: Phase I, demolition of a building containing too little asbestos
              to be regulated under the NESHAP...
                                                                                                 See Appendix J
Response 21: EPA disagrees with this statement. See Response 1.                                  Note 20

                                            Page 67
Page 16       Statement: One of these stakeholders stated,
                     "It is likely that asbestos emissions could be missed by the air monitors
                     because the overall testing requirements seemed incomplete. Further, air
                     monitoring alone is not sufficient. There should be soil samples after the
                     work was done, and methods that captured and tested wetting water to
                     ensure that asbestos was not being released into the environment through a
                     different media. Finally, there should be a comparison test between the
                     Fort Worth Method and the NESHAP. However, the current method is not
                     sufficient to serve as a methodology for that comparison test."

Response 22: EPA disagrees with the statement. It appears that the stakeholder            See Appendix J
             misunderstood the procedures followed in the Phase 1 test and the            Note 21
             phases of the project in general. See Response 1, 8, 9, 10 and 14. The
             soil was tested before and after the demolition. The water used on the
             site was tested for asbestos content to assure that it was not providing asbestos
             to the site. The Phase 2 test will include the comparison requested.

Regulatory Flexibility Incomplete

Page 16       Statement: In order for a Project XL proposal to be implemented within the scope
              of the applicable laws and regulations, a legal mechanism that provides sufficient
              regulatory flexibility (e.g., regulatory waiver, site-specific rule-making) must be in
              place. Under the Asbestos NESHAP, which implements these requirements of the
              Clean Air Act, EPA must publish a notice in the Federal Register that approves an
              alternative means of controlling asbestos before it is implemented. This notice
              allows the public the opportunity to assess the proposed alternative, and ensures a
              process of openness in the development of a new demolition method. Because
              EPA has not issued such a Federal Register Notice for the Fort Worth Method, the
              Agency has not established the appropriate legal foundation for this demonstration
              project.

Response 23: EPA would like to clarify the XL process. The FPA is negotiated,              See Appendix J
             signed by principal stakeholders, and its availability for review is          Note 22
             published in the Federal Register prior to the Agency issuing an
             appropriate implementing legal mechanism. There are ongoing
             discussions to continue this project outside of Project XL. If this decision is
             made, the project will meet many of the technical & process standards
             envisioned in XL and will have an appropriate legal mechanism. The IG's
             office is aware of these discussions as they were present at a meeting on
             September 29, 2003, where options were discussed.

Stakeholder Involvement Incomplete

Page 17       Statement: The City has performed some stakeholder involvement activities,
              including inviting stakeholders to review and comment on the Phase I proposal
              documents on the City's website in 1999. However, according to the 1997 Federal
                                             Page 68
             Register Notice, project sponsors should engage "direct participants" in the
             development of the project. According to the Notice, a direct participant "works
             intensively with the project sponsors to build a project from the ground up," and
             "the views of direct participant stakeholders will strongly influence the details of
             the project as well as EPA's ultimate decision to approve or not to approve the
             project."

Response 24: EPA is committed to a full and open process and to engaging a diverse             See Appendix J
             group of stakeholders as we develop fair and safe tests of the Fort               Note 23
             Worth Method under Phase 2. EPA will insure there is a transparent
             and inclusive stakeholder process as part of the project, whether the
             project proceeds under Project XL or another similar process.

Page 19      3-1.   We recommend that the Assistant Administrator for Air and Radiation, the
                    Assistant Administrator for Enforcement and Compliance Assurance, the
                    Associate Administrator for Policy, Economics, and Innovation, and the
                    Regional Administrator for Region 6 ensure that Agency officials work
                    with the City of Fort Worth to develop a Final Project Agreement that
                    adequately addresses key project XL Criteria for the entire proposed project
                    (Phase II and Phase III), including:

                    <     determining whether the project can achieve superior environmental
                          performance;
                    <     verifying a mechanism for regulatory flexibility;
                    <     obtaining adequate stakeholder involvement;
                    <     sufficiently documenting the method so that it can be properly
                          transferred to other communities with similar results; and
                    <     ensuring that all Project XL team concerns are adequately addressed.

Response 25: EPA concurs with the recommendation that there be a written agreement that
             addresses important projects, EPA will also address elements, such as
             environmental performance, stakeholder involvement, transferability, and the
             appropriate legal mechanism(s). It is not clear whether the project will
             proceed in Project XL.

Chapter 4     Better Agency Oversight

Page 21      Statement: EPA's oversight to date has not ensured that conditions placed on the
             project in the 2000 Conditional Project Approval Letter have been met, that
             problems related to representativeness and equivalency have been resolved, or that
             statutory and regulatory requirements have been satisfied

Response 26: EPA does not agree with the above statement. This statement                       See Appendix J
             continues and perpetuates the misunderstanding of the Phase 1 test.               Note 24
             See Response 1. EPA is committed to ensuring that the project is well
             defined, based on scientifically valid principles, and shaped through
                                            Page 69
             full and open dialogue with a broad stakeholder group. The need to further
             refine the Fort Worth Method as it presently exists, as well as the Quality
             Assurance Project Plan (air, water, waste monitoring specifics) for the Phase 2
             test, is a prerequisite set out by the IAC. EPA will conduct formal peer
             reviews of these documents and present them to the stakeholder group for
             review as well. The QAPP will include provisions for protecting public health
             during any Phase 2 tests through broader monitoring of asbestos levels in the
             area around the test sites and through the ability to halt a test demolition
             immediately upon detecting visible emissions. Fort Worth also has agreed to
             prepare for EPA and stakeholder review a remediation plan in the event of
             unplanned asbestos release during any Phase 2 demolition. Both Fort Worth
             and EPA are committed to designing a pilot that will provide sufficient
             information for evaluation of the Fort Worth Method against the existing
             NESHAP method. Finally, EPA will ensure that the range of conditions
             under which the Fort Worth Method is validated, assuming successful
             demonstration tests, defines the limits for eventually broadening use of the
             Method.

Page 22      Statement: Further, EPA may lack the necessary information to make an
             equivalency determination because the demolition was not representative of a
             normal asbestos removal for the following reasons:

             <      The pace of demolition was much slower than what would occur under
                    normal conditions;
             <      The amount of water used on the Phase I demolition was not representative
                    of a normal asbestos removal; and
             <      The building demolished under Phase I did not contain significant amounts
                    of spray-applied thermal insulation or asbestos-containing pipe wrap –
                    asbestos-containing materials which easily become friable.

Response 27: EPA disagrees with much of this statement. The Phase 1 test was                See Appendix J
             simply intended to be a preliminary, small scale test to inform EPA on         Note 25
             whether the Fort Worth method has promise and should be tested on a
             structure regulated under the NESHAP.

             Although the pace of the Phase I test was slower and not fully representative
             of a NESHAP removal, it is EPA's opinion that the pace was sufficient to
             validate the study. There appears to be confusion as to the findings of the
             Phase 1 demolition. Phase 1 was the first test of the Fort Worth Method. If
             the IG is referring to this test, there is no "normal" water use for this method.
             If the IG is referring to other removals such as NESHAP or AHERA, the
             comment doesn't relate as Fort Worth is a different technology. In summary,
             increased water use is not necessarily bad as it would tend to maximize
             wetting effectiveness. Some of the review team members are of the opinion
             that the water use during Phase I could have been increased. The third
             comment on the issue that the types of asbestos were not inclusive of pipe
                                          Page 70
              wrap and spray-applied thermal is only valid if Fort Worth intends to use this
              procedure on structures with significant quantities of this type materials. If
              so, additional demonstrations would be necessary. However, the Phase 1
              structure was considered to contain asbestos similar to structures that will
              qualify for demolition under the Ft. Worth Method.

Agency Policies and Procedures for Similar Types of Alternative Proposals Lacking

Page 23       Statement: Project XL was one of EPA's early efforts to provide innovative
              environmental alternatives. However, Project XL proposals are no longer being
              accepted because all such alternative proposals now fall under one of two other
              EPA innovations strategies: (1) Environmental Council of the States projects or (2)
              Innovations Strategies.


Response 28: EPA does not agree fully with this statement. The Agency currently is      See Appendix J
             promoting innovative pilot projects under the Joint EPA/State              Note 26
             Agreement to Pursue Regulatory Innovation and also the State
             Innovation Grant Program. Innovation projects may or may not
             involve federal regulatory flexibility. There is no program named
             "Innovations Strategies." Should the Agency undertake additional
             innovation projects in the future that require regulatory changes, EPA will
             ensure that they are clearly defined, based on credible science, shaped
             through an open stakeholder process, designed to give us useful information
             about alternatives to existing programs, and thoroughly evaluated prior to
             affording broader implementation.

Page 25       Statement: The September 23, 2003 revised method proposes no additional testing
              during Phase III demolitions, but rather moved directly to implementation of the
              Fort Worth Method.

Response 29: A single test in Phase 2 is insufficient to serve as a launchpad to          See Appendix J
             implement the Fort Worth Method. While this was the original plan            Note 27
             under the Ft. Worth Method, more test are needed for a broad finding
             of equivalency. The City and EPA are in discussions to conduct
             additional tests as necessary to gather adequate scientific data to determine if
             the Fort Worth method is equivalent to the NESHAP before seeking a broadly
             applicable regulatory change.

Pages
25 & 26       We recommend that the Assistant Administrator for Air and Radiation, the
              Assistant Administrator for Enforcement and Compliance Assurance, the Associate
              Administrator for Policy, Economics, and Innovation, and the Regional
              Administrator for Region 6:



                                            Page 71
             4-1.   Ensure that Agency officials work with the City of Fort Worth to design a
                    demonstration project that can be used to reach complete, reliable, and
                    valid conclusions.

             4-2.   Work with the City to ensure that the structures chosen for the Phase II
                    demolition contain sufficient asbestos to provide a representative test and is
                    sited in a remote location.

             4-3.   Ensure that Agency officials address the key conditions of the Conditional
                    Project Approval letter, including equivalency and FPA development.

             We also recommend that the Assistant Administrator for Research and
             Development and the Associate Administrator for Policy, Economics, and
             Innovation work jointly to ensure that:

             4.4    Agency officials develop a single guidance document that provides
                    fundamental criteria and is published in the Federal Register, including:

                    <    requiring assessment of the technical merits and enforceability of
                         proposed projects;
                    <    ensuring that relevant expertise within the Agency is appropriately
                         considered; and,
                    <    requiring peer review of proposals that have significant national
                         policy implications, to ensure that national policy decisions are based
                         on sound science.

Response 30: Recommendations: EPA concurs with recommendations 4.1 and 4.2.           See Appendix J
             In addressing recommendation 4.3, while we agree to follow the spirit    Note 28
             of the conditional approval and will work with the City of Ft. Worth
             to meet these goals it may not be in the formal Project XL process.
             EPA considers recommendation 4.4 to be beyond the scope of this project.




                                           Page 72
                                                                                        Appendix J

             OIG Evaluation of EPA's Response to the Draft Report

EPA provided a response to our draft report that consolidated the comments of five EPA offices.
Although the Agency did not agree with our presentation of certain issues, it agreed to implement the
majority of our recommendations and noted that our report would be helpful to them as they endeavor
to carry out tests in a scientifically sound manner. In addition to technical comments, the Agency
discussed two aspects of the draft report. First, they stated that the tone of our draft report was
"unnecessarily negative." We address this assertion in our specific responses, and have made changes
as appropriate. For example, we have given more prominence early in the report to the Agency's
plans to work with Fort Worth to improve the Method and have it peer reviewed prior to
implementation. We do not agree that there was a negative tone in draft report. There is a difference
between a negative tone and presenting negative results. The report calls into question many key
aspects of the proposed Fort Worth Method, and we have recommended processes, procedures, and
design elements that should be employed to assure a valid test is conducted.

The second Agency concern related to differing interpretations of the precedent-setting nature of the
Phase II test. We are concerned with the several contradictory aspects of the Agency's response. For
example, in its response, EPA states, "Any concerns regarding broad use of the alternate method seem
premature...it is simply a test." However, this statement seems to be contradicted with other
statements in EPA's response, such as, "The test is of broad interest because if it is successful in
showing an equivalently protective method at much lower cost, it has the potential to help many cities
demolish dangerous, abandoned buildings."

We believe that any test of the method should be well planned out and defined in advance, along with
well defined and agreed upon criteria for success, and that this XL project has implications for
demolition activities across the nation. Consequently, it is much more than just a test. Further, we
believe that OIG involvement in projects such as the Fort Worth Method is both appropriate and
timely, especially when such projects, as indicated in the Agency response, have the potential to
impact existing and possibly set new environmental and health protection precedents.

We are also concerned with EPA's response because Agency officials acknowledge that they have yet
to agree on what they plan to do under this demonstration project, even though this project has been
ongoing since 1999. In responding to our draft report, the Agency stated:

  "Fort Worth and the Agency have not reached agreement on the methodologies and processes for
  Phase II of the project and discussions are ongoing. We hope to reach agreement by January 30,
  2004, in order to submit the documents for peer review and public comment."

We believe that if the recommendations outlined in this report are carried out, ongoing disagreements
– such as how many tests will be conducted, what the criteria for evaluation of results will be, what
will be tested, and what the timeframes of the project will be – will move towards effective
resolution.

Our specific responses to Agency comments are listed below.
                                              Page 73
Transmittal Memorandum

Note 1 -    We continue to believe that OIG involvement in projects such as the Fort Worth
            Method is both appropriate and timely, especially when such projects have the
            potential to impact existing and possibly set new environmental and health protection
            precedents. Further, while EPA is still in an early stage of this Project XL Demolition
            project, the Agency has been working with the City of Fort Worth for over four years
            to develop this Method and has been unable to date to alleviate internal EPA
            stakeholder concerns. Also, the Agency is aware of the interest that many cities have
            exhibited in the outcome of the Fort Worth Project XL proposal, as those cities have
            indicated interest in using the Fort Worth Method. We are aware of the desire of
            many municipalities to address the on-going problem of abandoned or structurally
            unsound buildings, but – as noted in our report – over 165,000 asbestos demolition
            and renovation projects were conducted in the last 2 years without needing to change
            the existing Asbestos NESHAP.

Note 2 -    We have made modifications to the report based on specific comments from the
            Agency, including creating a "Recent Developments" section in the Executive
            Summary that discusses and gives credit to the Agency's most recent planned actions.
            However, there is a difference between a negative tone and presenting negative
            results. During the development of our Draft Report, we presented the information
            obtained in a straightforward, factual, accurate manner. Based the responses that we
            received from stakeholders we contacted, the majority believed that the Fort Worth
            Method needs significant modifications before it becomes equivalent to the Asbestos
            NESHAP, and a few did not believe it was possible that the Fort Worth Method
            would ever be equivalent to the Asbestos NESHAP. This is what we reported. We
            employed a sound methodology for soliciting stakeholder comments on the design of
            the proposed Method, including contacting all stakeholders identified by two or more
            groups involved in the proposed project. Nonetheless, the Fort Worth Method can be
            significantly enhanced if the Agency publishes the proposed Method in the Federal
            Register and solicits nationwide comment on the technical merits and enforceability
            of the proposal.

Note 3 -    We are encouraged that the Agency plans to have the proposed project externally peer
            reviewed and to obtain public comment on the technical merits and enforceability of
            the proposal. However, we remain concerned with the amount of time this project has
            taken, and the evolving nature of the Fort Worth Method description. For example, as
            discussed in Chapter 3, the Final Project Agreement (including stakeholder
            involvement activities), normally concluded within 12 months from the date of
            proposal, has yet to be finalized (this project was proposed on September 30, 1999).
            Also, after more than four years, the Agency and the City of Fort Worth have not yet
            agreed on a fully defined demolition methodology. Prior to providing information to
            the stakeholder groups listed in Appendix C, we contacted Region 6 and requested
            that they verify that the documents were the most up-to-date available. At the time of
            the request (March, 2003), Region 6 staff confirmed that the IG had the most recent
            version of these documents. Further, as evidenced in the Recent Development
                                           Page 74
           Sections in Chapters 2 and 4, and in Appendix G, we have also assessed the
           September 23, 2003 version of the Fort Worth Method. As noted in the report, as
           technical aspects of the proposed Method have been more fully described and
           documented, additional concerns have been raised, such as the fact that no air
           monitoring would be employed after the Phase 2 demolition is completed.

Note 4 -   We agree that the Phase I structure was chosen because it was a single family
           dwelling of less than three stories, and was therefore exempt from the Asbestos
           NESHAP due to the type of structure, and have modified the report accordingly.
           However, for the reasons discussed in Chapter 4, we do not agree with the Agency's
           conclusion that the Phase I demolition was successful as a demonstration of the Fort
           Worth Method. The Phase I demolition was not representative of a normal asbestos
           removal because the pace of demolition was too slow, the amount of water used was
           excessive, and a key procedure listed in the Quality Assurance Project Plan (QAPP)
           regarding wind variability was not followed. Additionally, the Fort Worth Method
           used in Phase 1 was not clearly defined in terms that provided a clear understanding
           of the RACM that would be removed during a Project XL asbestos demolition,
           making both independent analysis of the Fort Worth Method and replication by others
           difficult. (See note 25 for additional discussion of Phase 1 concerns).

Note 5 -   We are pleased that the Agency concurs with and plans to implement the majority of
           our recommendations. We would like to clarify that the peer review should include
           review by external organizations.

Note 6 -   As discussed in Chapters 2, 3, and 4, we do not agree with the Agency's position that
           the Fort Worth Method meets the Project XL criteria for superior environmental
           performance, appropriate regulatory flexibility, adequate stakeholder involvement,
           and transferability. See OIG responses to Agency comments 18, 20, and 23.

Note 7 -   As outlined in the 1994 Federal Register Notice establishing Project XL, "The pilots
           are intended to test new approaches that could conceivably be incorporated into the
           Agency's programs or in other industries, or other facilities in the same industry. EPA
           is therefore most interested in pilot projects that test new approaches that could one
           day be applied more broadly." The transferability criteria of Project XL thus indicates
           that this demonstration project should be able to be transferred to other organizations
           or communities that are facing the same situation as Fort Worth. Our statement
           regards the transferability expectation for Project XL demonstration projects. We
           have added language on Page 1 of the report to clarify this point.

Note 8 -   We were aware of and had already included in our Draft report a copy of the
           September 23, 2003 revision of the Fort Worth Method, which was discussed in our
           "Recent Developments" sections in Chapters 2 and 4; this has also been added to the
           Executive Summary. This revised Method is also presented in its entirety in
           Appendix F, along with an analysis of this version of the Fort Worth Method.
           Regarding the version of the Fort Worth Method provided to the stakeholders for
           review, we confirmed in March 2003 that we had the most up-to-date version of the
                                          Page 75
            Fort Worth Method before distributing it to the various stakeholders listed in
            Appendix C.

Note 9 -    During our field work activities, we forwarded all documents that we planned to send
            to the stakeholders (identified in Appendix C) to the Region 6 Project XL coordinator
            for this project. At the time of the request (March 2003), Region 6 staff confirmed
            that the IG had the most recent version of these documents. We have listed these
            documents in Appendix B.

Note 10 -   We are pleased that the Agency will work with the City of Fort Worth to clarify the
            RACM testing requirements and to ensure that future versions of the Fort Worth
            Method clearly state that the RACM testing requirements to be employed are those
            stated in the current Asbestos NESHAP (40 CFR, Part 763).

Note 11 -   We continue to believe that the proposed Fort Worth Method does not adequately
            address the criteria for immediately stopping the demolition. Neither version of the
            Fort Worth Method (see Appendices A and F) uses the phrase "no visible emissions,"
            nor does either version clearly address the authority for an inspector to halt demolition
            work if visible emissions are observed. In our view, these provisions should be
            specifically stated in the Method to avoid later debate and uncertainty.

Note 12 -   Regarding the row labeled "Adequately wet RACM during demolition," we refer
            specifically to Section 4(c)(ii) "Wetting" of the May 23, 2002 method, "A structure
            [emphasis added] will be thoroughly and adequately wetted..." Further, Section
            4(c)(5)(B) of the September 23, 2003 Method uses the same statement. Both
            documents indicate that the "structure" will be adequately wetted, but does not
            specifically state that RACM inside the structure will be adequately wetted.

            Regarding no visible emissions, please see Note 11 above. While "no visible
            emissions" was discussed in the 1999 Fort Worth Method Proposal document, no
            language regarding visible emissions was carried forward from the proposal
            documents to the Fort Worth Method.

            Regarding an immediately enforceable stopping point, as noted above in Note 11, the
            Fort Worth Method does not include language requiring work to stop if visible
            emissions are observed.

            Regarding dependency on air monitoring results, we maintain that the Fort Worth XL
            project is dependent on air monitoring because the QAPP stipulates that air
            monitoring results will determine successful project completion. Further, the City
            states that the Fort Worth Method will save approximately 40 to 60 percent over the
            NESHAP method. However, the majority of these savings would only be realized on
            demolitions where no air monitoring is conducted.

Note 13 -   We acknowledge the difficulties in applying the AHERA clearance level to ambient
            asbestos testing. We also agree that the AHERA clearance level is not a health-based
                                            Page 76
            standard. As discussed in Appendix E, the AHERA clearance level was intended to
            measure the lowest asbestos air levels then measurable using the AHERA analysis
            protocol. Currently, substantially lower levels can be measured due to lower filter
            background contamination levels. For example, as discussed in Appendix E, levels of
            10 to 20 structures per cubic centimeter can now be measured due to improvements in
            filter technology. Consequently, we believe that the AHERA clearance level of 70
            structures per cubic centimeter should be revisited, and any standard based on these
            assumptions should be revisited. Further, the adequacy of this testing level for
            determining re-occupancy of an enclosed area of a building does not make it an
            adequate clearance level for ambient air monitoring.

Note 14 -   We agree with this statement, and have modified the statement in the body of the
            report.

Note 15 -   Please see Note 5 regarding external peer review.

Note 16 -   Please see Note 18 regarding our discussion of the Agency's Response 19.

Note 17 -   We understand that the Phase I demolition was not originally included in the
            September 30, 1999 proposal. However, nothing in the additional requirements for
            Phase I precluded the Agency from addressing these key Project XL criteria for the
            remaining Phases of the demolition project. It remains our position that these key
            Project XL criteria have not been met.

Note 18 -   We remain concerned that, after more than four years, agreement on the number of
            tests to be conducted to demonstrate equivalency to the Asbestos NESHAP has not
            been obtained. While the Agency asserts that there will be multiple tests, this point
            does not seem to have been effectively communicated to the City, since the
            September 23, 2003 Fort Worth Method – the most recently revised version – still
            indicates that only one Phase II test will be conducted. Also, as discussed in Chapter
            4, the Region 6 Conditional Project Approval Letter to the City dated January 20,
            2000 included the criteria necessary to move forward to Phase II. This required that
            the data from the Phase I demolition support a finding of equivalency from the
            Administrator, and that the City of Fort Worth develop a Final Project Agreement.
            Agency oversight has not ensured that either of these criteria have been met. In this
            instance, the Agency failed to follow its own written procedures and requirements for
            this project.

Note 19 -   We have changed the word Council to Committee regarding the RAC/IAC. Further,
            we understand the decision-making process of the IAC that is outlined in the Project
            XL criteria. The impact of the IAC's decision-making process was discussed in Note
            18.

Note 20 -   We have discussed this issue with the Agency, and have addressed it in Note 4.



                                           Page 77
Note 21 -   We believe that the Agency may have misunderstood the intent of this stakeholder's
            comment. The stakeholder expressed concern that run-off from the site be captured
            and tested to determine if asbestos from the structure was being carried away from the
            site in a different medium. Further, we continue to have this concern based on
            Section 8(a)(2) of the September 23, 2003 revised Fort Worth Method, which states
            that, "Rinse water will be controlled on-site and allowed to naturally evaporate or be
            absorbed into the ground." We believe that this is a potential health hazard because
            any asbestos present in the rinse water will be left on-site in a friable condition.

Note 22 -   In three of its responses to our Draft, the Agency has mentioned that it is considering
            continuing the Fort Worth Method under a different process. Specifically, it states,
            "There are ongoing discussions to continue this project outside of Project XL;"
            "...whether the project proceeds under Project XL or another similar process;" and, "It
            is not clear the project will proceed in Project XL." We are concerned that the
            Agency has not determined which regulatory vehicle the Agency will use to move this
            project forward, if it does not utilize Project XL. Accordingly, we have added
            recommendation 4-4 in Chapter 4 which requests that the Agency officials specify
            which legal mechanism will be used and which technical and process criteria will
            govern the Fort Worth Method project in the future, specifically how human health
            will be protected to at least a level equivalent to the current Asbestos NESHAP.

Note 23 -   We are pleased that the Agency plans to use a full, open, transparent, and inclusive
            stakeholder process. However, we are concerned that stakeholder involvement has
            not yet been conducted. Further, the Agency does not appear to have addressed
            stakeholder comments to date. As discussed in Chapter 4, this stakeholder input
            includes numerous technical concerns provided by EPA staff and external
            stakeholders, as well as the stakeholders that we interviewed. Nonetheless, the Fort
            Worth Method can be significantly enhanced if the Agency publishes the proposed
            Method in the Federal Register and solicits nationwide comment on the technical
            merits and enforceability of the proposal, and we have included this in
            recommendation 4-4 in Chapter 4.

Note 24 -   We believe that this response from the Agency validates the concerns that we have
            outlined in Chapter 4 of the report. After four years of developing this project, the
            Agency's plans discussed in this response have yet to be fully developed and
            implemented.

Note 25 -   We are concerned with the Agency's statement that the Phase I demolition was "not
            fully representative of a NESHAP removal..." while still attempting to maintain that it
            was representative. For reasons discussed below, we believe that the Phase I
            demolition was not representative of an Asbestos NESHAP removal. Therefore, in
            our view, use of Phase I data should not be used to determine equivalency to the
            NESHAP.

            Both the contractor that conducted the Phase I demolition, and the City of Fort Worth
            Engineer, agreed that under normal circumstances about two to four hours of time
                                           Page 78
            would have been sufficient to demolish the Phase I structure, in lieu of the 2 days that
            were spent actually demolishing the Phase I structure. We do not believe that the
            pace of the Phase I demolition would be representative of the pace that would be used
            if the Fort Worth Method were approved for commercial use.

            We are also concerned that the more than 11,000 gallons of water used during the
            Phase I test would not likely have been used during a two to four hour demolition. In
            our view, use of water at this rate on larger structures is not realistic.

            As a Project XL proposal, since the Method may potentially be applied to structures
            throughout the nation, we believe that the Fort Worth Method document should
            address representative types and quantities of RACM that would be encountered
            throughout the country.

Note 26 -   The "Innovations Strategies" referred to in this statement references the Innovation
            Strategy as discussed in the September 30, 2003 document, "2003-2008 EPA
            Strategic Plan: Direction for the Future." Nonetheless, we are pleased that –
            irrespective of the program name under which such activities may be undertaken in
            the future – the Agency is committed to ensuring that such projects are clearly
            defined; based on sound science; employ a full, open, transparent, and inclusive
            stakeholder process; and use the Federal Register notice-and-comment rulemaking
            process to solicit nationwide input on the technical merits and enforceability of the
            proposal.

Note 27 -   We agree with this comment. As discussed in Note 18, we are concerned that the
            number of tests to be performed has yet to be determined.

Note 28 -   We made the recommendation for the development of a single guidance document
            because of our concerns about the Fort Worth XL Project. However, the Agency
            outlines its reliance on the Innovation Strategy in the September 30, 2003 Strategic
            Plan, as discussed in Note 26. As a result, we believe that this would be an
            appropriate step to assure that Innovations Strategy projects are evaluated based on
            sound science. It is our position that, irrespective of the program name under which
            such activities may be undertaken in the future, we believe that EPA should ensure
            that such projects are clearly defined; based on sound science; employ a full, open,
            transparent, and inclusive stakeholder process; and use the Federal Register notice-
            and-comment process to solicit nationwide input the technical merits and
            enforceability of the proposal.




                                           Page 79
Page 80
                                                                              Appendix K

                                         Distribution


EPA Headquarters

Assistant Administrator for Air and Radiation
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Research and Development
Associate Administrator for Policy, Economics, and Innovation
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Office of Policy, Economics, and Innovation
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-up Coordinator, Office of Air Quality Planning, and Standards

EPA Region 6

Regional Administrator
Audit Follow-up Coordinator

City of Fort Worth

Mayor
Environmental Management Department

Office of Inspector General

Inspector General
Assistant Inspector General for Program Evaluation
Assistant Inspector General for Human Capital
Assistant Inspector General for Planning, Analysis, and Results
Assistant Inspector General for Congressional and Public Liaison
Counsel
Science Advisor
Product Line Directors
Editor
Human Resource-Center Managers




                                             Page 81
